<html>
<title> - NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2008 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-35]

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2008

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

   BUDGET REQUEST FROM U.S. EUROPEAN COMMAND AND JOINT FORCES COMMAND

                               __________

                              HEARING HELD

                             MARCH 15, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                     U.S. GOVERNMENT PRINTING OFFICE
38-369 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                         IKE SKELTON, Missouri
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
MARTY MEEHAN, Massachusetts          ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               HOWARD P. ``BUCK'' McKEON, 
VIC SNYDER, Arkansas                     California
ADAM SMITH, Washington               MAC THORNBERRY, Texas
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MIKE McINTYRE, North Carolina        ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        KEN CALVERT, California
ROBERT A. BRADY, Pennsylvania        JO ANN DAVIS, Virginia
ROBERT ANDREWS, New Jersey           W. TODD AKIN, Missouri
SUSAN A. DAVIS, California           J. RANDY FORBES, Virginia
RICK LARSEN, Washington              JEFF MILLER, Florida
JIM COOPER, Tennessee                JOE WILSON, South Carolina
JIM MARSHALL, Georgia                FRANK A. LoBIONDO, New Jersey
MADELEINE Z. BORDALLO, Guam          TOM COLE, Oklahoma
MARK UDALL, Colorado                 ROB BISHOP, Utah
DAN BOREN, Oklahoma                  MICHAEL TURNER, Ohio
BRAD ELLSWORTH, Indiana              JOHN KLINE, Minnesota
NANCY BOYDA, Kansas                  CANDICE S. MILLER, Michigan
PATRICK J. MURPHY, Pennsylvania      PHIL GINGREY, Georgia
HANK JOHNSON, Georgia                MIKE ROGERS, Alabama
CAROL SHEA-PORTER, New Hampshire     TRENT FRANKS, Arizona
JOE COURTNEY, Connecticut            THELMA DRAKE, Virginia
DAVID LOEBSACK, Iowa                 CATHY McMORRIS RODGERS, Washington
KIRSTEN GILLIBRAND, New York         K. MICHAEL CONAWAY, Texas
JOE SESTAK, Pennsylvania             GEOFF DAVIS, Kentucky
GABRIELLE GIFFORDS, Arizona
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                Julie Unmacht, Professional Staff Member
               Stephanie Sanok, Professional Staff Member
                   Margee Meckstroth, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Thursday, March 15, 2007, Fiscal Year 2008 National Defense 
  Authorization Act--Budget Request from U.S. European Command 
  and Joint Forces Command.......................................     1

Appendix:

Thursday, March 15, 2007.........................................    37
                              ----------                              

                        THURSDAY, MARCH 15, 2007
  FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
          FROM U.S. EUROPEAN COMMAND AND JOINT FORCES COMMAND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     4
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Craddock, Gen. Bantz J., Commander, United States European 
  Command, U.S. Army.............................................     4
Smith, Gen. Lance, Commander, Joint Forces Command, U.S. Air 
  Force..........................................................     7

                                APPENDIX

Prepared Statements:

    Craddock, Gen. Bantz J.......................................    41
    Smith, Gen. Lance............................................    96

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Cummings.................................................   128
    Mr. Forbes...................................................   127
    Mr. Kline....................................................   128
    Mr. Larsen...................................................   127
    Mr. Taylor...................................................   127


  FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
          FROM U.S. EUROPEAN COMMAND AND JOINT FORCES COMMAND

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Thursday, March 15, 2007.
    The committee met, pursuant to call, at 10:09 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. The committee will come to order.
    We welcome General Craddock, General Smith. It is certainly 
good to see both of you, and I want to thank you for your 
leadership as well as thank the troops that you do lead.
    General Craddock, this is your first time before our 
committee as the commander of European Command (EUCOM) and as 
North Atlantic Treaty Organization (NATO) commander and I want 
to congratulate you on your new position. You have your work 
cut out for you.
    The European Command faced a number of critical security 
challenges pressing NATO and our allies. To significantly 
increase the contributions to security and stability is at the 
top of the list. I am personally frustrated with the fact that 
they have not offered more troops, despite the fact that the 
request has been made, and that a good number of their troops 
are limited in the scope of what they can do. And hopefully you 
can address that this morning. But I am doubly frustrated 
because of those two issues.
    In a short time, we are anticipating a so-called spring 
offensive and there is a prediction the opium harvest this year 
will be at an all-time high in Afghanistan. And yet General 
Eikenberry recently testified before our committee that NATO's 
actual contribution of troops and equipment leave the approved 
NATO requirement seriously under-fulfilled.
    I am convinced, General Craddock, that Afghanistan is 
winnable. Using the phrase of your predecessor, there is light 
at the end of the tunnel there. But our partners must seriously 
step up with more troops and more aid.
    Afghanistan is not only a central front in the war on 
terrorism, but the outcome there could well determine the 
future of the NATO alliance. Think about it. One thing could 
lead to another. If we are not successful there, if NATO is not 
successful there, it could be seen as an impotent organization 
and the fallout from that could be devastating.
    And then ask yourself, who benefits from NATO's 
unsuccessful efforts if it were to become a skeletal--no pun 
intended--but if it were to become a skeletal organization. You 
can't let that happen. That is why they must step up to the 
plate in Afghanistan.
    A special welcome, General Smith. It has been quite a while 
since the Joint Forces Command (JFCOM) has appeared before our 
committee in a posture hearing, and we are glad to have the 
command back because of the importance we place on your 
command.
    Joint Forces Command provides training to ready forces for 
our warfighters. It develops the joint warfighting concepts 
that will posture our forces in the 21st century. And we look 
forward to hearing about those concepts and the progress of 
your work. It is vital for us here in Congress to understand in 
order to help us consider the future challenges, authorizations 
and appropriations that Congress must give.
    So, General Smith, we thank you for your work and for your 
consideration today.
    We are interested in your work in joint training. As you 
sit next to General Craddock today, we would like to hear about 
your role in the allied command transformation. That is a big 
task, big words, but I look forward to your comments on that.
    Without further adieu, I ask my friend, Mr. Kline, if he 
has any comments at this moment.
    Mr. Kline. Thank you, Mr. Chairman. Thanks for yielding the 
time and for holding this hearing.
    Thanks to our witnesses today and to the Marines and airmen 
and soldiers and naval officers that are backing them. It is 
good to see you all this morning.
    Mr. Chairman, with your indulgence, I am going to read the 
opening comments of the ranking member, Mr. Hunter, in his 
absence. I am not going to presume to try to edit them in real-
time. So these are Ranking Member Duncan Hunter's words, not 
mine, although my suspicion is that I am going to be concurring 
wholeheartedly.
    ``Today this committee will consider the challenges and 
opportunities of the U.S. European Command, the U.S. Joint 
Forces Command and the North Atlantic Treaty Organization. The 
range of possible topics today is as broad as the vast reach of 
General Craddock's area of responsibility (AOR).
    ``Thank you both for joining us today to update us on your 
operations and initiatives and to explain how these efforts 
relate to the President's budget proposal.
    ``I especially hope that we can talk about how our global 
partners, particularly nations with the European Command are 
stepping up to commit their military forces to coalition 
operations and invest in their own military capabilities.
    ``I am also interested in hearing how U.S. forces are 
working with other partners, such as interagency players and 
non-governmental organizations (NGOs) to advance U.S. national 
security interest around the world.
    ``While he was the commander of European Command and the 
Supreme Allied Commander in Europe''--my own parenthetical 
note, that is always an amazing title to me, General Craddock. 
I am sure that has sunk in on you as well, Supreme Allied 
Commander--``General Jim Jones predicted that 2006 would be a 
pivotal year for NATO.''
    Mr. Hunter [Off-mike.]
    Mr. Kline. Just look at his face and I will continue to 
read so we don't have to do this real-time editing.
    ``And indeed, the alliance has entered a new era. It has 
launched and sustained the significant deployment outside of 
Europe. It has taken the lead for security and stability 
operations in the entirety of Afghanistan. Some 37 countries 
are working together to help build a peaceful and stable 
Afghanistan through the International Security Assistance Force 
(ISAF).
    ``Generals, both of you have key roles to play in our 
important NATO alliance. I will be very interested in hearing 
your perspective regarding allied views on this critical 
effort. In particular, what will be NATO's role with respect to 
Afghanistan's long-term security requirements?
    ``Understanding the important impact of counternarcotics 
and alternative livelihood efforts on the security situation, 
what is and what should be NATO's role in these efforts? What 
are we doing to persuade other nations to reduce or eliminate 
the caveats that they have placed on the use of their forces in 
Afghanistan?
    ``NATO has also answered the call in Iraq. Earlier this 
week, I returned from a tour of U.S. operations in Fallujah, 
Ramadi and Baghdad. This trip only strengthened my strong 
conviction that a successful handoff of security 
responsibilities to the Iraqi Army and police forces, allowing 
U.S. forces to rotate out of the battlefield, is possible. But 
Iraqi forces must be ready and willing to accept such 
responsibilities.
    ``The NATO training mission in Iraq has helped 
professionalize Iraqi Army officers toward this end. It is 
gratifying to see NATO demonstrate its continuing commitment to 
the common values of freedom and democracy even as it proves 
its flexibility and its continuing relevance. I would 
appreciate your thoughts on how our NATO allies and partners 
view their current and future role in addressing long-term 
security, stability, transition and reconstruction needs in 
Iraq.
    ``On the topic of investment, I find it interesting that 
despite NATO's requirement that allies spend at least two 
percent of their Gross Domestic Product (GDP) on their 
militaries, only a handful of nations actually do so. Over the 
last several years, many of our allies have argued that the 
European Union's (EU) growing focus on security and defense 
could result in increased military spending and improved 
capabilities of member nations.
    ``However, it appears that fiscal realities have not 
supported this argument. Moreover, it seems that the alliance's 
emphasis on transformation, including leveraging the experience 
and expertise of joint forces command, has not resulted in 
noticeable increases in expenditures or capabilities. In fact, 
NATO nations have recognized a significant shortfall in 
strategic airlift, yet these nations' combined acquisition of 
C-17s relies in large part on U.S. contributions.
    So, I wonder, how can we more effectively persuade our 
friends to transform and modernize their militaries?
    ``Finally, we will all be watching with interest the 
development of Africa Command (AFRICOM). As we have seen, 
ungoverned and under-governed spaces can become safe havens for 
terrorists. By partnering more closely with nations on the 
African continent, we can help to develop more secure borders, 
more responsible and capable military forces and security 
institutions that are more responsive to national governments 
and that can help to close the doors of any safe havens located 
there.
    ``I note that General Craddock's predecessors in European 
Command had worked with these nations. I look forward to 
hearing how standing up a new command may expand upon those 
efforts without creating dangerous seams with existing commands 
along the important security corridors found along the 
Mediterranean and the Horn of Africa.
    ``Generals, this is a pivotal time for the men and women 
under your command. Their work will continue both to strengthen 
U.S. military forces and capabilities and to foster the United 
States' vital relationships with multinational organizations, 
other nations bilaterally and non-governmental organizations.
    ``I thank you,'' speaking as Mr. Hunter. And I thank you as 
myself.
    Mr. Hunter. Would the gentleman yield?
    Mr. Kline. The gentleman would be proud to yield.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. I thank the gentleman for yielding. I just 
wanted to thank him for making this opening statement. That is 
one of the best statements I have ever made. [Laughter.]
    I thank my good friend from Minnesota.
    The one point that I would hope that you would go to is the 
prospect for developing a formula for NATO participation, where 
we at least have a goal in terms of the amount of resources 
that nations, based on their gross domestic product, devote to 
NATO, to the organization.
    Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    In consultation with Mr. Hunter, the last time we had a 
posture hearing, we will reverse the order in which we call 
upon the members of the committee. But I will remember to let 
the witnesses do their opening statements before that. Thank 
you very much.
    General Craddock.

 STATEMENT OF GEN. BANTZ J. CRADDOCK, COMMANDER, UNITED STATES 
                  EUROPEAN COMMAND, U.S. ARMY

    General Craddock. Thank you, Mr. Chairman, Representative 
Hunter, distinguished members of the committee. It is indeed my 
privilege to appear here before you today for the first time as 
commander of the United States European Command, EUCOM.
    Mr. Chairman, I have submitted a written statement that I 
ask be made a part of the official record.
    Before I continue, I would like to----
    The Chairman. Without objection, each of the written 
statements will be made part of the record.
    General Craddock. Thank you, sir.
    Before I continue with my remarks, if I could, I would like 
to acknowledge here my wingman, Lance Smith. As you said 
earlier, we are the two supreme commanders, if you will, at the 
strategic level for NATO. It is a pleasure to be with him here 
today. And as much as we work routinely closely together, we 
will do so here today.
    So, Lance, thank you.
    And also, if you would permit me, I would like to introduce 
my senior non-commissioned officer in European Command, Command 
Sergeant Major Mark Farley. He is my battle buddy.
    Mark, stand up, if you would.
    And I think it is important that he is here today, because 
he represents all of the soldiers, sailors, airmen and Marines, 
and he is continually out and about in the command, checking on 
the quality of life, training conditions, and is very essential 
to what we do every day.
    [Applause.]
    Since taking command of EUCOM, I have been struck by the 
command's expanse and diversity, the dedication and quality of 
our service members, the transformation of NATO in the 21st 
century and our Nation's commitment to this great alliance.
    EUCOM is conducting a broad range of activities to assure 
both EUCOM's and NATO's continued relevance. I will provide a 
brief overview of our activities, highlighting the vital role 
EUCOM service members play in this vast theater.
    While support for the global war on terror (GWOT) is our 
overarching priority, EUCOM is also focused on sustaining 
Europe as a global partner and furthering the U.S. security 
relationship with Africa.
    European Command's strategy of active security seeks to 
defeat transnational terrorist entities and violent extremists 
who threaten the United States, its allies and our interests. 
We will do that by denying our enemies freedom of action and 
access to resources and by building partner nation capabilities 
that promote stability.
    Security cooperation remains the cornerstone of this 
strategy. Our programs represent a proactive approach to 
building able partners. From airborne training to non-lethal 
weapons, education, EUCOM personnel and facilities provide 
practical and state-of-the-art education and training that 
assists our allies, our partners, in developing their 
capabilities to conduct effective peacekeeping and contingency 
operations with well-trained, disciplined forces.
    These efforts mitigate the conditions that lead to 
conflict, prepare the way for success and reduce the need for 
substantial U.S. involvement. Security cooperation programs, 
such as the International Military Education and Training 
(IMET), foreign military financing (FMF), foreign military 
sales (FMS), the Georgia Sustainment and Stability Operations 
Program and the Section 1206 Security Assistance Program are 
just a few of the critically important tools you support that 
provide the resources to execute our security cooperation 
activities throughout Europe, Eurasia and Africa.
    European Command's ongoing transformation initiatives 
highlight the military effectiveness of forward-based and 
rotational forces that are powerful and visible instruments of 
national influence. Since 2002, our transformation plans have 
ensured that operational forces and pre-positioned logistics 
are postured to meet current and potential contingencies.
    The current plan retains two brigade combat teams, one in 
Germany and one in Italy, along with eight fighter aircraft 
squadrons in the United Kingdom, Germany and Italy. 
Additionally, we will maintain a rotational brigade in Romania 
and Bulgaria as Joint Task Force East, sourced using the global 
force management process.
    In addition to our conventional forces, special operations 
forces are essential. They enable EUCOM to develop and maintain 
trust and long-term relationships with partner nations as we 
help to build their capabilities and capacities.
    NATO remains an alliance committed to the collective 
security of its member states and increasingly to a broader and 
more comprehensive view of security in an interdependent world 
where the threats are increasingly non-traditional and more 
global in nature.
    While political consultations among the 26 NATO nations 
helps sustain a unity of purpose, the men and women of the 
alliance plus 17 other troop-contributing nations are 
redefining NATO's role by their actions in operations across 
Afghanistan, the Balkans, Mediterranean, Iraq, the Baltics and 
Africa. Today over 50,000 NATO military forces are deployed in 
support of NATO operations. This is a visible and effective 
demonstration of NATO resolve to meet both European and out-of-
area security challenges.
    In the current strategic environment, collective security 
is an essential factor in achieving national security. NATO, 
with the proper resources and political will, remains the 
preeminent security alliance in the world. It is in our 
national interest to ensure that NATO succeeds. The leadership 
and the capabilities our Nation contributes to the NATO 
alliance remain fundamental to preserving the transatlantic 
partnership.
    Continued Congressional support for our efforts is 
essential to ensure that the European Command remains capable 
of effective engagement throughout our area of responsibility, 
that we can provide sustained support to the NATO Alliance and 
to our regional partners and that EUCOM meets the broad task 
set forth in the national military strategies.
    The dedicated men and women of the United States European 
Command are committed to achieving our national goals and 
objectives.
    Mr. Chairman, I thank you for holding this hearing, and I 
look forward to addressing the committee's questions. Thank 
you.
    [The prepared statement of General Craddock can be found in 
the Appendix on page 41.]
    The Chairman. Certainly. Thank you.
    General Smith.

STATEMENT OF GEN. LANCE SMITH, COMMANDER, JOINT FORCES COMMAND, 
                         U.S. AIR FORCE

    General Smith. Thank you, Mr. Chairman, distinguished 
members. I am honored to testify today. It has been a long 
time, as the chairman indicated, since Joint Forces Command has 
held forth in this committee.
    It is also a great pleasure and honor to testify with my 
friend, John Craddock. Our relationship, besides going back a 
ways, it is critical not just between our two NATO hats but 
also with our Joint Forces Command hat and our European Command 
hats, and we work closely in that.
    I have also brought with me the senior enlisted member for 
Joint Forces Command, my very trusted adviser but also one of 
those individuals you don't see very often because he is 
constantly out with the services and with the other combatant 
commanders to get the temperature of the water in the enlisted 
force and to make sure that we are meeting the training needs 
and the requirements of those combatant commanders that use the 
enlisted force so greatly.
    So, Mark, if you wouldn't mind standing up.
    Sergeant Major Mark Ripka.
    [Applause.]
    Sir, as you have accepted my statement, I would like to 
just say a few words and then look forward to taking questions.
    My message is really one that Joint Forces Command wakes up 
every morning to really do several things. Our first and 
foremost responsibility is to successfully pursue the war on 
terror, the global war on terror. We work every day to 
strengthen our joint warfighting capabilities. We have an 
entire group, but the entire command is committed to ensuring 
that the forces that we provide to the combatant commanders are 
trained and ready and try to keep a proper balance between the 
day-to-day business of Joint Forces Command.
    The providing of force is the other thing that we do. But 
really to balance that with a look at the future, to make sure 
that we continue down the road toward transformation for the 
entire force.
    I would also add that I have spent a fair amount of time 
visiting troops around the world in General Craddock's region, 
in Afghanistan, and throughout the Persian Gulf, and everything 
that I have seen during my visits has been impressive. In fact, 
awe-inspiring. The service and devotion and resolve of the 
troops that I meet every day is incredible and something I 
think we can all be proud of.
    Just last week I visited Fort Stewart in Georgia and Fort 
Bragg at North Carolina in an effort to look at their training 
as they get ready to go into Iraq. One of those units is doing 
home station training of the Third Brigade, or the Second 
Brigade of the Third Infantry Division. And to watch what they 
are doing in preparation of the war and their progress as they 
practice to be the last unit of the surge. They will go over in 
May.
    And I can report that your support and the support of the 
Nation is truly turning out the best-trained and the best-led 
force that I have ever seen in my professional career. I do 
consider it a privilege to serve with young men and women of 
that caliber in this critical time in our nation's history.
    Mr. Chairman, thanks for this opportunity. I will be 
pleased to answer any questions. And I do want to take the 
opportunity to invite all the members down to Norfolk and 
Suffolk to see both the Joint Forces Command facilities and our 
Joint Futures Labs and the things that we are doing there, but 
to meet with the men and women of Allied Command 
Transformation, the NATO part of my job at Norfolk.
    Thank you, Mr. Chairman.
    [The prepared statement of General Smith can be found in 
the Appendix on page 96.]
    The Chairman. Thank you very much, General Smith.
    Per our previous discussion, we will reverse the order and 
call on Mr. Cummings first, please.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    The Chairman. Just let me remind the folks that the five-
minute rule is hovering over us.
    Thank you.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    And General Craddock and General Smith, I want to thank you 
all for your service. And on behalf of all of us in the 
Congress, we hope that you will extend our appreciation to the 
men and women who valiantly serve our Nation and the world.
    General Craddock, you noted in your testimony, in your 
written testimony, that Western Europe is the home to some of 
our oldest and closest allies, and there has been a moving 
trend in which the defense budgets of these same NATO allies 
steadily fall to a level that jeopardizes their ability to make 
long-term strategic military commitments to meet the alliance's 
21st century ambitions.
    In this same vein, as our allies continue to lessen their 
budgets and commitments, we have seen a steady flow of 
announcements from our allies of withdrawal plans from combat 
zones. Notably, British Prime Minister Tony Blair, back on 
February 21st, announced his plans for the imminent withdrawal 
of around 1,600 of his country's troops from Iraq. And then 
Denmark also plans to withdraw 460 coalition troops by August.
    The question is, what efforts are being made to ensure that 
other allies do not allow the lead of Denmark and Great Britain 
and withdraw from Iraq or Afghanistan? And when do you think 
that the United States might be left alone, if you think they 
might be left alone, as a coalition of the willing?
    General Craddock. Well, thank you, sir.
    Tough question. But the fact is, that right now the 26 NATO 
nations, with a goal of two percent of GDP apportioned to the 
defense establishment, only six meet the goal. And the trends, 
as you state, are negative. And those obviously are political 
decisions made by the nations, based on their priorities.
    Now, with regard to the trends, indeed the United Kingdom 
announced they were going to withdraw troops from Iraq. At the 
same time, however, they announced that they were going to send 
additional troops to the ISAF mission, International Security 
Assistance Force, in Afghanistan of some 1,400.
    Now, that is in addition to the some 800 troops they 
announced they would add to the ISAF mission earlier in the 
year. So there is indeed a significant plus-up there.
    I think what we are seeing--and I don't know the cause of 
this other than I am an observer, and Central Command has the 
coalition, if you will, in Iraq. So I am not privy to the 
inside baseball there. But it appears to me that some nations, 
when they have made the judgments of where they want to 
contribute their forces, are moving forces from Iraq and at the 
same time creating head space and force availability to 
contribute to the NATO mission in Afghanistan.
    Mr. Cummings. Well, I would hope that would be the case, if 
they have got to leave.
    Considering that we began our efforts in Afghanistan in 
October of 2001, what are the long-term and short-term goals of 
NATO and ISAF military presence in attaining stability in 
Afghanistan? And how would you define stability and success in 
that nation?
    Just these few questions.
    What are NATO, ISAF and those immediate concerns that 
stifle it from meeting these goals? Are we prepared for the 
spring offensive that the Taliban is expected to launch? Why do 
many of the nations that are part of NATO and ISAF force 
maintain national caveats that limit what their troops can do 
in Afghanistan?
    And are Afghanistan's security forces capable of 
independently maintaining stability in Afghanistan? And how 
would you characterize their level of training, equipment and 
readiness?
    General Craddock. Okay, let me try to get some of those 
here.
    What is the ISAF purpose, if you will, or mission? It is to 
create a secure and stable environment so that reconstruction 
and development can occur. The fact of the matter is, you 
cannot get reconstruction and development without a level of 
security that assures the safety, if you will, of the 
international organizations, the non-governmentals, who are 
chartered to do that.
    On the other hand, you cannot have lasting, enduring 
security without investment which yields to opportunities, 
employment, development of infrastructure. So they go hand in 
hand.
    What NATO has chartered to do here in the authorization of 
the North Atlantic Council is to conduct security operations to 
enable reconstruction and development of that country. At the 
same time, we recognize that it is essential that the Afghan 
National Security Forces (ANSF) be trained and developed over 
time to be capable of assuming their own security mission and 
ensuring both the public security, the police and the national 
security, the army of that nation.
    Mr. Cummings. Thank you very much.
    The Chairman. Thank you.
    Mr. Conaway, from Texas.
    Mr. Conaway. Thank you, Mr. Chairman.
    Good morning, gentleman.
    Command Sergeant Majors, thank you both for being here.
    And, Generals, thank you both for coming.
    General Craddock, as we talk about the two percent goal for 
NATO nations to contribute, do we put that in the context as 
what an overall NATO mission would look like and what our 
responsibilities would look like, and if the two percent is not 
there, where are the gaps and what NATO's capabilities would be 
if two percent of all of the countries had the two percent 
versus where they are right now? And are those gaps that in all 
likelihood the United States would be asked to make up the 
difference for if called upon?
    General Craddock. Thank you, sir.
    I think the manifestation of the lack of the two percent 
falls in two areas. One is transformation of that force from 
what largely these nations have had in the past, which are 
territorial forces at their borders ensuring that no other 
nation invades. They are largely heavy forces, if you will. The 
transformation to deployable, agile, capable forces.
    And again, General Smith, through the Supreme Allied 
Command Transformation, is a part of working with that. That is 
the first place that suffers.
    The second place that suffers is every decision to support 
the ISAF mission with forces boils down to a fiscal decision, 
and it costs the Nation to provide the forces, to sustain the 
forces, to equip the forces. Those are national 
responsibilities. And without that budget authority then, they 
have to weigh that in their decision authority to do that.
    The fact is, the NATO level of ambition for these 
operational missions is not matched by its political will.
    Mr. Conaway. You mentioned earlier in your statement about 
the political will to keep NATO viable. Is that our political 
will or the member nations' political will?
    General Craddock. No, it is the political will of the 
member nations.
    Mr. Conaway. How does the growth in NATO--does that help or 
hurt this military capacity that NATO has?
    General Craddock. From the willingness to participate, it 
is very helpful.
    These nations, those who for so long were under the Soviet 
Union, have not had the opportunities of freedom and democracy 
that others may have had in years past, are very forthright. 
They are eager to sign up and participate. They are looking for 
capability of development.
    On the other hand, they do not have to the extent that they 
will in the future large budgets, and it is very difficult for 
them then to generate the resources to do this.
    But I find that we continually--I am amazed by the 
opportunities they create and the will they have to 
participate. We have to find ways to enable that in the future.
    Mr. Conaway. Given the commitments in Iraq and Afghanistan, 
are you resource-constrained with respect to your new command? 
Have you had a chance to evaluate where you are thin and where 
you need resources?
    General Craddock. With regard to European Command, as I 
said, our transformation strategy, the theater transformation 
strategy which we began in 2002, was postulated on some 
assumptions that we made then. And in the intervening almost 
five years now, there has been changes in the geopolitical 
environment. There has been forces that are assigned to EUCOM 
that are part of the global force structure that are moved into 
Iraq and Afghanistan on a routine basis.
    I think, and I have directed the EUCOM staff to go back and 
let us do an assessment of the assumptions we made in 2002 to 
see how they fit today, are they still valid, and if not, what 
needs to be revised. And then let us look at the geopolitical 
environment of what has transpired in the global war on terror, 
what has transpired in the overall force structure, if you 
will, because the Army is going to have an increase in its 
force structure of some number of brigades, and let us validate 
the posture, because it may well be that our ability to support 
the national military strategy and the plan we made in 2002 
with the numbers of forces may need adjustment.
    I don't know the answer, but I think it is worthy of 
investigation.
    Mr. Conaway. Thank you, gentlemen.
    Mr. Chairman, I yield back the balance of my time.
    The Chairman. Thank you.
    The gentlelady from Kansas, Ms. Boyda.
    Mrs. Boyda. Thank you very much.
    And thank you for your service--and, Sergeant Majors, for 
yours as well, too. Being there with the troops is really what 
is so important in getting that feedback. Thank you so much.
    We have heard so many times that our troop strength is 
really being stretched very thin, and clearly that must be what 
you are going through as well. You have alluded to it, and with 
the change of mission or the geopolitical change, just how 
comfortable do you feel about our strategic readiness, if an 
event were to happen in Europe or under the EUCOM command?
    What is your specific readiness like, where the U.S. 
Command stands or--what am I trying to say? I have asked the 
question. But within EUCOM, where are you with regard to 
readiness for an event that, quite honestly, isn't on the radar 
screen today?
    General Craddock. Thank you.
    I don't know if it is an issue of readiness or capacity. I 
think because the U.S. forces assigned to the European Command 
are in the global force pool, and not only the Army but the Air 
Force and Naval forces are being rotated into Operation Iraq 
Freedom (OIF), Operation Enduring Freedom (OEF), into ISAF, the 
NATO mission on a routine basis, they are very ready.
    Now, obviously, it is cyclic.
    Mrs. Boyda. They are or they aren't?
    General Craddock. No, they are ready. They train up for the 
mission. They deploy for a year, sometimes longer, based on the 
situation. And then they come back and they retrain.
    So the readiness, I mean, this is an incredibly talented 
veteran force. They are very, very good. And they take this in 
stride. The question is one of capacity. If something else 
arises and the forces assigned to European Command are engaged 
in those missions, then I would have to go back to the chairman 
with a request for forces. And then falls into another process 
where the forces must be generated and assigned.
    Mrs. Boyda. Generally, in your years of command do you find 
that there is generally some capacity there to take care of 
events that were not planned? Are we in a different position 
than we were 3 years ago, 6 years ago, 10 years ago? And what 
level of comfort or discomfort do you have with your strategic 
readiness levels?
    General Craddock. I can only speak with regards to my 
comfort level with the capacity from the European Command. And 
we have very little capacity left after we source the global 
force pool, if you will, for these ongoing.
    My concern is this: that what we do, essentially, in our 
active strategy, is we try to shape the environment for the 
future. And that is by engagement, that is by theater security, 
cooperation--not assistance, but we cooperate. We send our 
forces and they cooperate and train and exercise with partner 
nations.
    Our ability to do that now is limited because we don't have 
the forces available since they are in the rotation to the 
other----
    Mrs. Boyda. I appreciate your candor.
    Let me ask one other question. When we are talking about 
NATO forces and it is a lack of political will, we believe, 
what do you think is the cause of that lack of political will?
    General Craddock. I think it is varied, depending on 
nations. To a certain extent, I believe there is the phenomena 
that if you haven't felt the pain of the global war on terror, 
then you may not realize that it is real and it is here and it 
is a threat today and, I think, into the future.
    Second, I think that many nations have a notion that the 
defense against terrorism is a public security issue, read 
police, internal to a nation, as opposed to a national security 
issue, which would mean military, potentially abroad, not in 
the nation.
    Mrs. Boyda. Would you say there is a disconnect between how 
governments feel and leadership feels versus people? Or is it 
both that are on the same page? Or is this a public opinion 
phenomena? Or basically leadership? Or both?
    General Craddock. I am really not qualified to make that 
judgment since I am hearing and seeing and feeling it from a 
certain perspective.
    Mrs. Boyda. All right, thank you very much.
    I yield back my time.
    The Chairman. I thank the gentlelady.
    I am going to ask Ms. Drake to proceed and hopefully we can 
get your five minutes in before we break, gentlemen, for our, 
it looks like two votes.
    Ms. Drake.
    Mrs. Drake. Thank you, Mr. Chairman.
    And I would like to thank both of you for being here with 
us today and for your service to our nation.
    General Smith, as you know, I have visited you in Norfolk. 
I have been in your headquarters. I certainly remember the very 
poor condition of that building, the World War II era building 
that you are using as your headquarters. And this committee 
was, I think, very pleased to authorize the $13 million for 
your new headquarters. And unfortunately, what happened with 
that bill in 2007, that money was not left in there.
    So I wondered, from your perspective, if you could tell us, 
based on the importance of Joint Forces Command and its lead 
role in the training and transformation of our 21st-century 
military, what your perspective is on what can we do to help 
ensure that our warfighters have a modern headquarters that 
meets the requirements and the demands of Joint Forces Command.
    General Smith. Thank you, Congresswoman Drake.
    You are indeed right. The location of part of my staff on 
the Norfolk side is in a converted Navy hospital. It was built 
over 60 years ago. And they suffer from electrical problems, 
water problems and the like.
    And, frankly, it impacts the day-to-day ability to do 
business as well as the morale of the troops, and I can see a 
complete difference between that and the staff that is over on 
the Suffolk side in much better facilities.
    The other part, they are living right next to the NATO 
headquarters, which is a considerably nicer building with 
considerably better facilities. So the U.S. folks are in the 
lesser facilities there.
    The fact is, they will do what good soldiers always do, and 
they will go to work every day and they will work hard. But the 
fact that they do not have the connectivity, they don't have 
the facilities they need to be able to do the job, has an 
impact. And I know why the money didn't show up, because it was 
a new start and the Navy made a determination of that, and we 
very much appreciate your support and hope that we can get the 
funding as soon as possible so we can move down to getting the 
new facilities they deserve.
    Mrs. Drake. Thank you for that.
    And I would also like to ask you if our current strategy 
for modeling and simulation is deficient to meet warfighter 
requirements and the evolution toward interagency involvement. 
Or, in other words, we talk a lot in this committee about how 
do we do a Goldwater-Nichols for interagency and what can JFCOM 
do to help move us in that direction.
    General Smith. Well, first of all, the modeling and 
simulation piece, the headway that we have made in modeling and 
simulation is just extraordinary. And it is a wonderful 
partnership in that area, because we have a relationship with 
industry and with Old Dominion University, Virginia Tech and 
University of Virginia (UVA), all who are engaged in modeling 
and simulation. In fact, Virginia is building its modeling and 
simulation center just down the road from our facilities in 
Suffolk.
    The next step I think to the modeling and simulation piece 
is being able to get it out in the field. So, we are using it 
wonderfully in the training arena, but it has application to 
the warfighter in the field as well, and that is our next step. 
And that will be a large step.
    Through the whole training experience, we have seen more 
and more involvement by the interagency as well as an increase 
in the level of people that are coming. I mean, it used to be 
that the new guy on the block that would show up at exercises, 
and today we are seeing much more senior people from across the 
staff.
    The beauty of modeling and simulation and distributed kind 
of things is that you don't have to all go to the same place to 
be able to do that. And as we make progress down that road, I 
think we will see more interagency involvement. It is not 
because they don't want to participate. It is because 
oftentimes they don't have the time or the capacity and they 
are one-deep in almost everything that they do.
    Mrs. Drake. Thank you, General.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    And we will have a recess, gentlemen, until we come back 
from the vote. Thank you.
    [Recess.]
    The Chairman. The committee will come back to order.
    Thank you for your indulgence. We made the vote.
    Ms. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    And thank you to both of you for being here. Thank you for 
your extraordinary service, as well.
    I wanted to follow up with the last question on interagency 
coordination and I think you said that we don't have the time 
or the capacity to focus our resources as we should on that, 
despite the fact that we do have the modeling, the simulation, 
that are being developed, and I certainly appreciate that. We 
all do. I mean, that is a beginning step.
    But how much of our resources are we actually contributing 
to that? How many people are focusing on how we do that? And I 
am really not suggesting that it is all in the military. I 
think our great frustration has been that you have shouldered 
the entire burden for this, and we need to expand that.
    What suggestions do you have? Is it a matter of your really 
committing more resources to it and moving across those lines? 
What do you see as the Congress' responsibility in this?
    General Smith. Well, I mean, obviously, there is 
consideration out there for a Goldwater-Nichols II kind of 
thing for the interagency. Now, regardless of what you call it, 
I think anything that will tie us together closer I think is 
important and would be of benefit to everybody.
    When I said we don't have the forces or the whatever to do 
it as much as we would like, I was really referring to the 
agencies more than anything else. I mean, the, you know, the 
State Department oftentimes is one-deep and when somebody goes 
off--we have the luxury within the military of having a two-
week exercise and a week to plan the month before and stuff 
like that. Many agencies really don't have the time to be able 
to do that, and the demands that we make on them are pretty 
widespread.
    So I would want them to participate in a joint exercise in 
Norfolk. General Craddock would want them to, you know, take 
part in an exercise in European Command. When he was down at 
Southern Command, he wanted them to take part in exercises down 
there. And they just go, ``We would love to. We do have other 
jobs to do.''
    So it is not for lack of wanting to do it. So I think part 
of the answer in my view is the whole business that we are 
doing with the state coordinator for reconstruction and 
stabilization, Ambassador John Herbst, and his desire to build 
a state reserve corps of people who I think would have time and 
would have expertise to be able to participate in such things. 
That would help.
    Now, having said that, we are also doing--I was at Fort 
Bragg on Friday, looking at provincial reconstruction team 
training that is going on down there for the troops or the 
people going into Afghanistan, and there were two U.S. 
Department of Agriculture people there doing part of the 
training and others taking part of the training. There were two 
Department of State people and there were two United States 
Agency for International Development (USAID) people, senior 
people, all taking part in this training.
    So we are much further down the road than we, I think, ever 
have been. At the same time, by the way, Foreign Service 
Institute is setting up training for Department of State for 
provincial reconstruction team members going into Iraq, and we 
are actively participating in the training with them.
    There are opportunities now that are presenting themselves 
that, I think, all speak positive, but we have to have more 
opportunities and more capacity to do this.
    Mrs. Davis of California. But it is not enough at this 
point?
    General Smith. Yes.
    Mrs. Davis of California. Could you share with me as well 
that--getting a sense, really, of how active NATO has been in 
providing the training, equipping and technical assistance to 
Iraqi personnel there in Iraq. How many Iraqi forces is NATO 
currently training through this mission and how many NATO 
trainers are there?
    General Smith. I think that is a mixed question for both 
General Craddock and I.
    My responsibility for training with my Allied Command 
Transformation hat on for Iraqis is coordinating the effort 
outside of Iraq, for instance at the NATO school in 
Oberammergau or at the other institutions that the nations have 
to do that. That is what I do, and we do it at the request and 
approval of the Iraqi government.
    Mrs. Davis of California. Could I ask General Craddock, do 
you have a number, a sense, how many are actually engaged in 
that?
    General Craddock. The number varies. Right now, it is about 
200.
    It has been a little more than that in the past because we 
had some missions that involved training the trainer. What we 
had to do was train the Iraqi leaders in specialized courses. 
It is not unit training, it is individual, such as a staff 
training. And the intent there was to train those leaders while 
we trained instructors, then turn over the training to 
instructors, and so we have drawn down a little because we 
didn't need all of our instructors. We needed mentors for their 
instructors.
    At the same time, there has been opportunities for new 
training. We will soon send--my headquarters will send the 
North Atlantic Council a proposal for police training done by 
the Italian carabinieri. They have made the visit. They want to 
do it. We have to get the authority from NATO headquarters. 
That will push the numbers back up as we start to train police 
leaders.
    So it has been back and forth fungible. I think some 3,200-
plus Iraqi officers and non-commissioned officers have been 
trained to date.
    Mrs. Davis of California. Thank you.
    The Chairman. Dr. Gingrey.
    Dr. Gingrey. Thank you, Mr. Chairman.
    General Craddock, General Smith, thank you very much for 
being here with us today and, of course, discussing European 
Command, Joint Forces Command and NATO. You certainly have a 
tremendous area of responsibility.
    And as I look at the AOR, the map, and of course look at 
Russia, and think about the fact that some 70,000 troops, I 
think, have been rotated out of the European Command--and I 
think about the European Union, of course. They are the ones 
that traditionally I would think have a military that can give 
more support to NATO than the more recent entries, such as 
Romania and Bulgaria and Slovakia and the Baltic States, but 
yet the European Union is talking about forming their own 
defense headquarters, their own military mission. That 
frightens me in regard to what effect that is going to have on 
NATO.
    I am also very frightened by the rhetoric coming out of 
President Putin lately in regard to our thoughts of having a 
missile defense system in Poland or maybe another European 
country that would welcome that. But Putin begins to make 
threatening remarks and, of course, he has been quite friendly 
to Iran in regard to the development of their nuclear program.
    So I would like for both of you to address those issues and 
tell the committee how you feel about that. Do you share my 
concerns? And as we discuss your budget, what are your needs 
and how do you feel about moving 70,000 troops out of the 
European Command?
    General Craddock. I will go ahead and start first, if I 
could, sir.
    The theater strategy is ongoing. As I said earlier, the 
concern I have is the ability to conduct the missions that we 
have been given in European Command with the forces available, 
because the forces are in this force pool and they're moving 
into Iraq and Afghanistan on a rotating basis.
    That is why I directed a study, because I am concerned and 
I don't know, but I am skeptical that we have adequate forces 
available without having to come back and request forces to be 
sent over to us on a rotational basis.
    Now, when you build relationships, theater security 
cooperation, one of the valuable opportunities is to build 
enduring relationships. And if we rotate our forces over for 
exercises and engagements and they go back and they could be 
active duty from Fort Bragg today and next year they are active 
duty from Fort Carson or a reserve component, we don't build 
the enduring relationships.
    So even though we are doing it, the quality, if you will, 
suffers, and we don't optimize, I think, on the intent of the 
strategy. So we are going to take a look at it with a view 
toward making a determination. Do we have adequate troops 
available for the task we have been assigned?
    With regard to the E.U., I think there was an agreement, 
Berlin Plus, where there was an arrangement between NATO and 
the European Union with regard to development of defense 
organizations. That is a good arrangement if it is followed. I 
think there is room for the European Union to develop niche 
capabilities while NATO retains a security role.
    We must work together to avoid duplication, because at the 
end of the day the units are the same units. They have a 
different hat.
    The Putin rhetoric, I think that it has already been stated 
by the secretary of state and I agree, there has been many 
meetings, much engagement. We have had fair and open and 
transparent discussions with regard to the antimissile 
capability in Poland; the Czech Republic we are looking at, and 
I think that that is either miscommunication or potentially 
just deliberately overstating the case. We will continue to 
engage and make the point.
    General Smith. I share your concerns. General Craddock and 
I were both in Munich when Mr. Putin made those remarks, and 
the next day the minister of Foreign Affairs for Czechoslovakia 
stood up and said, well, he wanted to thank Mr. Putin for the 
speech, because it absolutely validated why Czechoslovakia 
joined NATO.
    My concern is, yes, we are talking with Russia and the 
like, but there is an impact on the other nations. You see some 
concern on the part of Poland and hence some discussions about 
bilateral relationships with the United States based on their 
concerns about what they are looking at to the east. And that 
is what the rhetoric, I think, is causing, more than anything 
else.
    Dr. Gingrey. Thank you, Generals.
    And I see my time has expired. I yield back.
    Thank you very much.
    The Chairman. Thank you.
    We are nearing the list of those that arrived before the 
gavel.
    Mr. Ortiz.
    Mr. Ortiz. Thank you so much, Mr. Chairman.
    General Craddock, General Smith, good to see both of you, 
and you are accompanied by a group of old friends that are with 
you today. Thanks for joining us.
    Now, I was just wondering, what is your assessment of your 
command's ability to effectively deal with the range of 
security concerns and responsibilities within the European 
Command? And how is your command affected by having units from 
Europe deployed to Iraq and Afghanistan?
    And I ask this question because we have so many hot spots 
all over the world, sometimes I wonder that even when we, you 
know, raised our end strength by 65,000 people, sometimes I 
wonder whether we have enough.
    And I am just wondering, you mentioned a few moments ago 
that you do not have enough capacity. Maybe you can elaborate a 
little bit on that, as well.
    General Craddock. Well, thank you, sir, for the question.
    Obviously, it is a challenge, because we want to, in this 
enormous theater with 92 countries in the area of 
responsibility, we want to be able to engage. And the key here 
is, one, we have got forces available that are ready for any 
contingency. Second, we need to build partner nation capacity. 
And to do that, that is where theater security engagement 
opportunities exist.
    Where we are unable to do it because of a lack of forces 
available, then it slows the progress. We have to more finitely 
and discretely prioritize what it is we do in order to get the 
greatest advantage or to partner and create the greatest 
opportunity and capacity in that nation that we are working 
with, to look for what they will be able to do in return. So it 
exacerbates the problem.
    Now, we are still doing it to the extent that we have the 
forces available, but I will tell you that I reviewed all of 
the engagement opportunities over the last two years, the 
exercises that we do, and ask for a listing of everything we 
had to cancel and why. And it was surprising in its volume. In 
other words, there was more there than I expected.
    What is the reason? Because first of all, we have got 
headquarters and troop units involved in our rotation for the 
priority mission. It is the GWOT, and we understand that. At 
the same time, then, we have to very carefully pick and choose 
those events that we need to do.
    Last, what we do is we request rotational forces from here, 
from the continental United States, and go over to engage on an 
episodic basis, not there for the duration, which will work, 
but it is in my judgment suboptimizing the opportunity to be 
able to have these long-term enduring relationships.
    I just recall, when I was a division commander and 
assistant division commander in Germany in years past, those 
relationships that you established were very important, and 
they provided access, they provided trust and confidence. And 
the capacity building, I believe, moved along much faster.
    Mr. Ortiz. General Smith, I know that you are working with 
the coalition forces in Europe. I know we sometimes question 
about the ability of the Iraqi soldiers, whether they are 
prepared, you know, to go to war with us and whether they have 
the right equipment and so on.
    Are you satisfied? Do you think that if something came up, 
a conflict somewhere, that you could depend on those troops? 
That they would not only join us, but that they have the right 
numbers of personnel, the right support forces and the right 
equipment?
    And my concern is that I worry about the--we mentioned 
before the preposition stock. You know, not only do we worry 
about the preposition stock, we worry about sustainability, in 
case we do go into a long war, like we are now. For how long 
can we sustain it? Maybe both of you can share with your 
answer.
    General Smith. Well, you know, that is the million-dollar 
question, but it really depends on what level of effort you 
need or you determine you need to engage in.
    We are taking some risk in our ability to operate in other 
parts of the world because of the commitment we have to Iraq 
and Afghanistan. I look at that on a pretty regular basis. At 
least twice a year we do a special assessment to look, to 
evaluate our ability to support plans in other parts of the 
world.
    And indeed, as we go into the surge and take some of those 
preposition stocks, that does have an impact for our ability to 
operate elsewhere.
    I think our time is up.
    The Chairman. I thank the gentleman.
    We now have completed those who have arrived before the 
gavel, and we will go to those who have arrived after the 
gavel.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And General Craddock, General Smith, thank you very much 
for being here today.
    I was particularly struck by the AOR, to see your areas of 
responsibility, to think that you have from the Azures to 
Vladivostok. But I look at it in a very positive way. I served 
in the Army National Guard 31 years. I remember well studying 
Fulda Gap. I remember my National Guard unit preparing in the 
event of World War III to be deployed to resist a Soviet tank 
invasion of Greece.
    How far we have come. It is particularly exciting--to me, 
it is a dream come true to see the newly liberated countries of 
Central Europe and Eastern Europe, to have visited Liberia, 
seen the return of democracy to Liberia. I believe all of this 
is due to peace through strength of the American military. And 
so I want to thank you.
    And in particular, the expansion and growth of NATO, I am 
the co-chair of the Bulgaria Caucus. I visited there 17 years 
ago, saw their first free elections, and now I have seen them 
become a member of NATO, develop into a free market democracy. 
And on January 1, they became part of the European Union.
    Can you tell me about the plans for bases in the Republic 
of Bulgaria?
    General Craddock. Thank you, Congressman.
    The plans right now is what we call Joint Task Force East, 
where we are going to make some investments in both Romania and 
Bulgaria in order to provide facilities for a small forward 
headquarters that will be the command and control headquarters, 
then to accommodate rotational forces rotating continuously 
through both Romania and Bulgaria.
    It is a joint operation. We have got U.S. Air Force Europe 
involved in that. They are already earmarking and providing 
forces for that capability.
    The timelines are such that it appears that we will finish 
the Romanian side of it first and then with the fiscal year 
2008 military construction (MILCON) submission that we have, 
that will, once approved, be able then to provide the in-state 
cooperative security location facilities that we will have--
correct, the forward operating site facilities that we will 
have in Bulgaria.
    We originally planned for about what we call a 1-0 
presence, which means we will always have some level of 
rotational forces forward. We may not be able to do that. We 
may have to back it off a little bit based upon force 
availability.
    I am looking and discussing the situation with both U.S. 
Army Europe, U.S. Air Force Europe, that if we have to, we may 
be able to forward deploy on a rotational basis our forces out 
of Europe as a proof of principal early on, to build to 
capacity, ensure that the facilities are right, and then 
continue.
    I might also add, Bulgaria is a good NATO partner. 
Recently, as I have worked through our statement of 
requirements and tried to get more troop units and more 
capacity capability into Afghanistan, there was a need for a 
certain type of capability at the Khandahar Airfield.
    We were working very diligently in trying to get someone to 
take that on, and just two days ago I received information from 
the chief of defense of Bulgaria that he would do that. So they 
volunteered. It is greatly appreciated. And that is the type of 
ally that we have got to depend on.
    Mr. Wilson. It is just awesome to see the changes. In fact, 
I visited with the commander of Bulgarian forces in Kabul. What 
an extraordinary opportunity. And I also visited ten years ago 
in Romania, where they expressed their dream and hope and 
vision one day to be part of NATO, and who would ever imagine 
just within a couple of years this would come to fruition?
    In terms of NATO expansion, for both of you, what is the 
prospects for Georgia and Ukraine?
    General Craddock. Very quickly, obviously, political 
decisions, we are working both very close, with regards to 
military relationships, to ensure that there are defense sector 
reforms and the conditions are set there from a military 
perspective.
    I think right now with the recent announcement the 
Georgians are going to participate in the OIF in a significant 
way with providing troops and also potentially for Afghanistan, 
that is a plus.
    I think that in Ukraine, obviously there is a political 
situation there with regards to the receptivity of the people 
as to whether or not they want to be NATO members at this time. 
So we will have to watch that political development.
    Mr. Wilson. And a final question. Back in Darfur, I visited 
there, and you are training African Union (AU) troops. What is 
the success? I was impressed by the troops of Ghana.
    General Craddock. I think that the training opportunity is 
fruitful. It is helping them establish the staff-level 
competencies that are needed.
    I think there is much more to do, and the turnover, of 
course, is one that will have to continue to train in order to 
offset that. But we must continue, in my judgment, to build the 
A.U. capacity and depth in their competency.
    Mr. Wilson. Thank you very much, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Meek.
    Mr. Meek. Thank you so very much, Mr. Chairman.
    General Smith and General Craddock, I am glad you were able 
to join us this morning.
    On the line of questioning that you have just closed off 
on, I was more concerned about the training of A.U. troops and 
in talking, I know that African Command will be up and going 
pretty soon.
    I had an opportunity about a week and a half ago to travel 
to Ghana as part of the Speaker's official delegation to 
celebrate their 50th anniversary of their independence. And I 
can't help but say that, as you know, the growth of terrorism 
is going to grow in that neck of the woods and other areas.
    I have had some conversations with some folks in the White 
House and some other folks that are a little apprehensive about 
getting involved in what is going on in Darfur due to the fact 
that there would be another Muslim country that the U.S. could 
be involved in.
    But we had a major crisis that we haven't seen since the 
Holocaust that is going on there right under our noses, and we 
are the country set to be responsible for making sure that 
others are responsible. And when historians look back at this 
time, they are going to look at our contribution, what we did 
and what we did not do.
    Framing it that way, the Speaker recently put me on the 
NATO--made me one of the representatives from the House, as it 
relates to the parliamentary.
    I know we are doing training. I know we are providing some 
moving troops in that area. I want to hear from both of you on 
what more can we do to assist not only A.U. troops but to 
hopefully turn the tide in Darfur.
    General Craddock. I will go first and try to be quick.
    I think there are a couple issues. One, we probably need to 
continue the airlift of the African Union troops in. Second, we 
need to continue the training of the African Union command and 
control capacity, the capability there, the management of the 
troops. And to the extent we need to make sure that the global 
peacekeeping operations initiative (GPOI), the ACOTA, the 
African Contingency Operations Training, continues, where that 
builds then the capacity of the contributing nations.
    That is ongoing. That ACOTA gets a large percentage of the 
GPOI funding and in my judgment it is essential that it 
continues to do that, so that that capacity is built.
    Now, from a NATO perspective, there will have to be a 
political decision for NATO to become involved. Oftentimes, as 
I said earlier, levels of ambition exceed political will. I 
think that NATO will watch the United Nations closely to see 
what the United Nations lead is and where the United Nations 
may turn for that intervention.
    With regards to the European Command, I think we can 
continue to support, as we have. If there is a call for greater 
intervention, U.S. forces involvement, then European Command 
would have to come back. Obviously, we will put the plan 
together and request forces, then, from the Department of 
Defense.
    Mr. Meek. General Craddock, one of the questions that has 
surfaced out of your response, I am familiar with NATO's 
involvement, and I think as it relates from a U.S. standpoint, 
I was reading of the--well, the briefing, the country briefing 
on my way flying over.
    Is it true that we are training--I am talking about we, the 
United States, we are training 60 percent of the peacekeeping 
troops or soldiers, African soldiers, in Africa? Is that under 
your command?
    General Craddock. It is. Well, I am responsible for Africa.
    I don't know that we are in the--ACOTA is the African 
Contingency Training effort.
    Mr. Meek. Right.
    General Craddock. That is being funded under the global 
peacekeeping operations. About 60 percent of the funding of 
that program goes to ACOTA. So from us, it is 60 percent of our 
effort.
    Now, is there anyone else doing that? I don't know if any 
European nations are providing any discreet peacekeeping 
training to specific nations on a bilateral basis.
    Mr. Meek. Okay.
    General Craddock. But pretty much, what is being trained is 
United States.
    Mr. Meek. General, I see my time is getting ready to run 
out. I am going to let you know that I am very interested in 
knowing what we can do. I believe that we can do more. I think 
the deck is going to be shuffled politically as it relates to 
Iraq, Afghanistan and while that deck is being shuffled, maybe 
we can look at how we can play a greater role in curbing the 
violence in Darfur.
    Thank you, Mr. Chairman.
    Mr. Ortiz [presiding]. Thank you.
    Do you need a response?
    Mr. Meek. Well, General Smith was going to respond.
    Mr. Ortiz. Yes, go ahead.
    Mr. Meek. Thank you.
    General.
    General Smith. Actually, I don't have a lot to add to what 
General Craddock said. I mean, we are part of the training 
effort, but in a very small way.
    Mr. Meek. Okay.
    General Smith. I am talking about the NATO side of my 
responsibilities.
    Mr. Meek. On the NATO side.
    And usually, Mr. Chairman, we are going to be the lead as 
it relates to a number of these issues dealing with Darfur, and 
I am just trying to find out how this committee could be a part 
of the solution.
    I feel that we should be doing more. I don't know if--the 
answer may not be boots on the ground. It may be the very 
support that we are already doing, but intensifying it and 
leading that effort in the NATO spirit.
    Thank you.
    General Smith. I would say, it has not been ignored and the 
United Nations has not specifically asked NATO to go in, as 
General Craddock said. The E.U., I think, is debating and 
discussing how they can participate as well.
    Mr. Ortiz. Thank you.
    My good friend from Mississippi, Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    General Craddock, I thank both of you for being here.
    I am curious, what if anything could be done diplomatically 
to entice our NATO allies to get further involved in the effort 
in Iraq, in your opinion? Do you hear anything in conversations 
with your peers from Europe that might change things?
    Because I happen to think that in retrospect, one of the 
things that worked so well in Bosnia is the international tone 
to the intervention.
    General Craddock. Well, thank you, Congressman.
    That may be the $64 question here. It is difficult. It is 
tough.
    First of all, you know, the trend is just the opposite. 
They are pulling out the support. I, in discussion issues with 
chiefs of defense, my counterparts, equivalent of the chairman 
of the Joint Chiefs, I do not hear any appetite or any 
discussion of greater involvement. On the contrary, the 
discussion is what they can do for NATO in Afghanistan, 
oftentimes at the expense of participation in Iraq, the 
offsets, if you will.
    A couple of things. I think that, one, the success in 
Bosnia by NATO then kind of led to the European Union saying 
they have got this thing under control to the point we can 
probably finish it up and do that. It may well be that success 
and improving security environment in Iraq will entice some of 
that same type of thought. I think it is a long shot, but I 
would not rule it out.
    But right now, there are nations that are risk averse. I 
think that has manifested, as we see caveats in Afghanistan, 
and I think I don't see that trend being reversed any time 
soon.
    General Smith. Could I add on that?
    Mr. Taylor. Yes, sir, General.
    General Smith. The fall of the Prodi government in Italy 
did not help the atmosphere at all in Europe either, because 
they fell in good part because of the Administration's support 
for Iraq.
    Mr. Taylor. To what extent have the insurgent successes at 
destroying High Mobility Multipurpose Wheeled Vehicles (HMMWVs) 
with mines--to what extent has that migrated to Afghanistan? 
And this is a leading question to how many HMMWVs do you have 
in Afghanistan and is there any plan to transition them to some 
variant of the Mine Resistant Ambush Protected (MRAP).
    General Craddock. I don't have the number of M114, 1114 
HMMWVs. I can get that for you for U.S. forces. And the NATO 
nations all bring in various types of armored vehicles, and we 
will provide that for the record, if that is acceptable.
    With regard to the Improvised Explosive Devices (IEDs), 
what we are seeing in Afghanistan is we are seeing an increase 
in the use of IEDs, because of its terror effect and it is 
asymmetrical effect.
    The Taliban, the Hezb-e-Islami Gulbuddin (HIG) forces, are 
not going to stand and fight. They tried that last year, and it 
was devastating. So they now are moving more into these 
asymmetric attacks. We see more suicide IEDs, both vests and 
vehicles. We don't see right now a lot involving high-tech 
IEDs. But there are more numbers and there are more suicide 
bomber-type events.
    We have been successful in being able to find some of the 
IED-makers, but it is still hit and miss.
    [The information referred to can be found in the Appendix 
beginning on page 127.]
    Mr. Taylor. Are the suicide bombers--I can only imagine the 
difficulty in trying to after the fact figure out who did it, 
but I am sure you try. Can you track where they come from? Are 
they Afghan? Are they from around the world? Is there a trend 
there?
    General Craddock. Generally speaking, they are trained in 
Pakistan, in the tri-border Waziristan area. They are equipped 
and they are coming in after being indoctrinated there.
    Some are Afghans who have lived in Pakistan for years. Some 
are Afghans who moved across the border to get their training, 
their instruction, and moved back in to detonate the bomb.
    Mr. Taylor. Thank you, Mr. Chairman.
    Thank both of you, Generals, for being here.
    Mr. Ortiz. The lady from Florida, Ms. Castor.
    Ms. Castor. Thank you, gentlemen, for being here today.
    I want to continue the line that my colleague, Mr. Taylor, 
started on. Can you drill down and provide us greater detail 
with the reasoning what our allies are saying about why they 
will not commit more to the mission in Afghanistan? What 
reasons are they giving you?
    General Craddock. This is an ongoing debate. I think there 
are a couple of reasons.
    First of all, there is a cost reason. They, as I said, six 
of the nations meet the two percent benchmark for two percent 
of GDP going to defense/security means. So the rest are on a 
shoestring. Any commitment they make, then, to send and support 
and train and equip their forces in Afghanistan comes out of an 
already tight top line.
    Many of those nations, large, large percentages of those 
budgets go to personnel salaries. So there is very little 
flexibility. So that is the first thing I think that comes in 
as a problem area.
    Second, I will tell you that to a great extent, they are 
already committed and not only internally but externally in 
other missions.
    We do, in NATO, what we call a defense planning 
questionnaire, where we every year and sometimes more often 
send out and ask the nations to declare their forces available 
for NATO missions and then we take that data back, and that is 
what we use when we decide who to ask for what. Because we 
target our requests. We just don't throw it out in the 
newspaper and hope somebody bids on it. I mean, we kind of 
figure out who has what capability.
    The goal, if you will, is that 40 percent of the nation's 
military capacity is available for deployment by NATO and that 
at any one time NATO has about 8 percent deployed. And that is 
the benchmarks we use. So I would tell you that it varies among 
nations. I send letters, ``You need to step up your 
contribution. It is costly.''
    Second, as I said earlier, some of these nations look at 
this as, well, in the beginning it was a peacekeeping operation 
and now it has changed, so we don't want to be a part of that. 
Or if we do it, we are going to caveat it. It is unhelpful. It 
restrains the commander. It restricts flexibility. And we 
continually, on a daily basis, work with nations to try to 
reduce and eliminate to the extent we can those constraints.
    General Smith. The word I hear the most at the most senior 
levels is it lacks public support. And they fear for their 
government positions and the like because of that.
    Ms. Castor. Thank you.
    And then back to Africa, with the new regional combatant 
command in Africa, can you explain what the long-term vision 
is, what your understanding of the long-term mission is? And 
where are we spending funds now? And where will the request 
come in the future?
    General Craddock. With regards to Africa Command, the 
recognition of the fact is that Africa today has a much greater 
level of strategic interest to the United States and this 
command, I think, will be unique in terms of both its structure 
and application.
    The challenges and the problems in Africa today cannot be 
solved by military means, okay. We believe that is fact. Now, 
there are terrorist issues in parts of that country because of 
the ungoverned spaces. But by and large, the challenges are not 
of the terrorist nature. They are of an economic nature. They 
are health with incredible endemic disease.
    Ms. Castor. So will we see more requests for the indirect 
type of action and civilian----
    General Craddock. That is exactly the structure we are 
approaching for Africa Command, trying to make it an 
interagency command with greater civilian representation. And 
not only from Department of State, but Energy, Department of 
Health and Human Services (HHS) and others, because that is 
where the power, the knowledge, the capacities come from, so 
that, again, opportunities can be created, development, 
investment, and then this terrorism level of security, we think 
we can deal with from our classical approaches to security.
    Mr. Ortiz. My friend from Arkansas, Mr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    Generals, I am sorry I was not here earlier. We had a ten 
Veterans Committee markup also, and I couldn't be here.
    I wanted to pursue a little bit this issue of the Africa 
Command. I remember the general, I don't know, it must have 
been a decade ago now, when in response to questions would wish 
that he had more resources for dealing with Africa. And then 
General Jones was a big proponent of more involvement with 
Africa. In fact, he talked very eloquently several years ago 
before this committee about why he thought we needed to do more 
in Africa.
    So I really appreciate the things you are saying, General 
Craddock.
    It seems to me we have some issues, though, that are going 
to hold back the effectiveness of an Africa Command. I will 
just throw a couple of those out there. I think you talked a 
little bit about it earlier in response to Ms. Susan Davis from 
San Diego.
    But, you know, the State Department for some years has had 
problems staffing some of the more difficult posts, the 
hardship posts. I think they are getting better on their 
personnel policies, but their personnel policies actually did 
not contribute very well to getting these things staffed up.
    We have issues of coordination that still go on. I think 
there is a very strong interest on the part of a lot of us of 
having some kind of a Goldwater-Nichols-type study done 
imminently, if possible, that could deal with looking at this 
kind of coordination.
    I will give you one specific example I saw several years 
ago. I went to Sierra Leone, this was shortly after the U.N. 
was moving in to take over at the end of the civil war, and 
there was a Brit team there, about 200 Brits, military, that 
were doing training of the new Sierra Leone Army.
    We had three troops there, one Air Force, who 
coincidentally was from Little Rock Air Force Base, one Marine 
and one Army, is my recollection. And the Marine, I guess 
because I was a former Marine, came to me and said, ``You all 
have to do something.''
    He said, ``This is literally what happened.'' He said, ``I 
arrived here on a helicopter with an American woman who was in 
her late 60's, wearing a neck brace because she had neck and 
back problems. She worked for a private non-governmental 
organization (NGO). We got off the helicopter, she got into a 
car and was taken somewhere out in rural Sierra Leone, some 
hours away, by drive.''
    He said, ``Under the rules that we had at that time, I did 
not have permission to leave Freetown after dark, even with the 
ambassador's desire,'' and he did have that desire.
    And, you know, we got that thing straightened out when I 
got back, but it just seems like we have got a lot of issues 
with regard to this coordination. And maybe the standing up of 
this new Africa Command will really help us work on those 
issues, because I don't think it is just a problem for Africa. 
I think it is a problem all around the world.
    As you pointed out, the kind of success we want to have in 
Africa is not going to be primarily because of military. I 
mean, we hope it is not because of military operations. We hope 
it is because of a whole lot of other things. But that is true 
of almost every place in the world. We hope that, you know, 
diplomatically and economic development and political 
development, democracy development and the rule of law and 
civilian control of military, all those kinds of things, will 
be what makes the world a better place.
    I hope that as you run into problems as you are standing up 
this Africa Command, and whoever the first Africa commander is, 
I think you are going to run into legislative areas where it is 
not going to go as well as you want.
    And there is a lot of interest in this Congress in looking 
at that, because this is really brought home in the whole issue 
of what is going on in Iraq right now, where the State 
Department had to come to Secretary Gates and say, ``We can't 
get people to go to Iraq. We need you to provide 130 staff 
people to staff up the provincial reconstruction teams, because 
we can't get State Department people to go.'' And I think that 
really brought home the challenge that we have.
    If you have any comments about that, that would be fine. 
But the one specific question I want to ask is I also think 
another thing that pulls us back in terms of our national 
security is our American propensity to disregard foreign 
language training.
    I had three students from the People's Republic of China in 
my office a couple of hours ago who are in an exchange program 
with Hendrix College, in Arkansas. They said that they all 
started learning English in junior high. But they said that 
there has been big changes. She said now the kids are learning 
English in elementary school. And I am not sure I could find a 
school, a high school or a junior high in Arkansas, that 
teaches Chinese or Farsi or Arabic.
    Would you comment on this general issue of language skill 
in our military and how that might be helped or if there is 
anything we might do as a Congress?
    General Craddock. I will take a shot at it.
    Dr. Snyder. Those weren't very military questions, were 
they?
    General Craddock. Well, no.
    First of all, the language. You are absolutely right. In 
talking to some long-serving U.S. civilians in Afghanistan, who 
have been there for several years, before 2001, came back right 
after, and I said, ``What is the greatest problem that we 
have?'' And the answer was, ``U.S. forces are not as culturally 
sensitive as NATO forces. One, they don't do any language. They 
don't even try.''
    Well, it is true, and it is unacceptable. But it is what it 
is. And we have got to, I think, as a nation invest in some 
language requirements, as you said, starting very young. Not 
everybody will be able to do it, but we have got to try. And I 
think it is telling everywhere I go that that is the case.
    Part two, with regard to interagency, I already see it in 
terms of trying to put together this structure of a 
headquarters. I think that headquarters should be at least 40 
percent civilian, guys in ties, if you will, or whatever the 
case may be. And right now, that is not the case, because we 
are having a hard time getting subscribers to sign up.
    I am probably being too harsh, but the question always is, 
one, what is in it for me and, two, who is going to pay the 
bill. And we have got to get by that and we have got to try 
something new, to see if this thing will make the difference 
that we need to make.
    General Smith. There are some good military programs out 
there to try and at least get basic conversational kind of 
things that we are doing as we embed people into Iraq, into the 
training transition teams, as well as Afghanistan. But it is 
the only place they are getting it. They are not getting it--I 
think there is one college in the United States that teaches 
Urdu or Pashtun or something like that. The opportunities 
aren't out there.
    Dr. Snyder. Thank you.
    Mr. Ortiz. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    General Craddock, General Smith, thanks for coming and 
helping us out.
    My questions are really for General Craddock regarding 
missile defense.
    I think in the next few weeks, our subcommittee on 
strategic forces will be looking at the Missile Defense Agency 
(MDA) budget and a variety of the needs there. So I wanted to 
get some perspective from you regarding European Command and 
missile defense.
    If you could address some of these questions, what is your 
assessment of the impact of the missile defense program on our 
relationship with our European allies and partners and with 
Russia? If you can discuss at least your assessment of some of 
the hurdles that we may face as we try to move forward in 
Europe in placing a theater missile defense or regional missile 
defense system there.
    General Craddock. Thank you, Congressman.
    First of all, with regard to theater missile defense, the 
Missile Defense Agency's initiative, I think that NATO has 
looked at that and has endorsed that concept. The secretary-
general has said so even recently after the comments that have 
come back from Russia.
    There is already and has been for some years talk, 
discussion, and looking at how one could integrate missile 
defense in Europe. There is some short-range capability. Very 
little intermediate or long-range. The consultations, the 
discussions, have been ongoing for some time.
    Now, with this latest response from Russia, I think there 
has been a new viewpoint. We saw, I think, in the last couple 
of days the chancellor of Germany now has said there needs to 
be a debate, a discussion, a greater debate and discussion in 
NATO with regard to the MDA approach for basing of radars and 
interceptors in the Czech Republic and Poland.
    I think that discussion will occur. I think that, again, 
there has been fair and complete disclosure by the United 
States with regard to the intent and so I would see personally 
a successful conclusion to that.
    And at the end of the day, as General Smith said, we heard 
from the Czech foreign minister, it is their call. It is a 
bilateral decision on their part. But they stand by the fact 
that it is a sovereign decision.
    I think, again, there will be political controversy back 
and forth. But the facts are the facts, and I think once laid 
out in a very intellectual way and we get by the emotion of 
this, that there should be positive progress. And I think that 
the European partners and the nations will understand what this 
entails and what the threat is. That is the key aspect of it.
    Mr. Larsen. Do you think our European partners understand 
that, I want to be careful. I don't want to offend any of our 
partners here. But do you think Russia will understand that? 
That is, is it your assessment that if the decision is made by 
Czechoslovakia, Poland and so on that they want to be a partner 
in this and we move forward, that that is the end of the 
discussion?
    General Craddock. Congressman, I would submit to you that 
the facts are so compelling that there will in my judgment be 
no military misunderstanding of that concept, missile defense, 
theater missile defense. I think that the issues will be 
political in nature, and that is where the disagreements will 
be.
    Mr. Larsen. So it becomes our problem?
    General Craddock. In a manner of speaking, sir.
    Mr. Larsen. Sure. Sure.
    Can you chat a little bit about Medium Extended Air Defense 
System (MEADS) and the management structure of MEADS? Do you 
think it needs changing? Do you think it is going to work and 
is working and is going to work?
    There seems to be some--we are going to explore this in a 
couple of weeks in a hearing, but I am just getting the 
impression that a relationship with Germany and Italy on MEADS 
isn't going as smoothly as possible and I wonder if you have an 
opinion on that.
    General Craddock. I am not enough of an expert to be able 
to make a judgment at this time. I am understanding a little 
bit of the history and how we got to where we are, and 
obviously with changing political considerations, then the 
relationships and agreements are going to change also. So I 
wouldn't want to do that now.
    However, I would be quite happy to provide something for 
the record, a response, to give you an assessment of where we 
think it is to the extent that we can today, if that would be 
acceptable.
    [The information referred to can be found in the Appendix 
beginning on page 127.]
    Mr. Larsen. That is fine. Fair enough answer. I appreciate 
that very much. That is good enough for me.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Thank you so much.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank all of you, witnesses and those attending them, 
for, again, let me never miss telling you how grateful we are 
for all that you do for this country and for just the cause of 
human freedom.
    I think that your testimony today, both your written and 
spoken testimony, has reminded us all that the warfighters in 
this country and across the world do indeed protect us from 
very real threats.
    Just the most recently confession in Guantanamo Bay by 
Khalid Sheikh Mohammad should be prime facie evidence in that 
regard. Although it is a little hard to know about the 
credibility of a known terrorist, it is interesting that he 
confessed, among other things, that he was involved in other 
attacks and planning of other attacks and he did not have, 
because of all of you having the capability to interdict his 
plans, he did not have the chance to proceed with those plans 
in Panama Canal, the Sears Tower in Chicago, the New York Stock 
Exchange, the U.S. nuclear power plants, London's Heathrow 
Airport and Big Ben.
    Mohammad said he shared responsibility also for planning 
the assassination of Pope John Paul in the Philippines. This 
should remind us all that the enemies we face are indeed very 
real and that the successful processes of the judicial process 
created by Congress in Guantanamo Bay continues to be needed.
    Having said that, may I just shift gears and ask you, 
General Craddock, on a non-related issue to missile defense, 
you said in your testimony that an important aspect of EUCOM's 
strategy of active security is to defend against threats posed 
by emerging ballistic missile capabilities in Southwest Asia.
    You mentioned that there is a planned acquisition and 
projected deployment of missile defense systems in the Czech 
Republic and Poland which will be funded through the MDA. Can 
you talk a little more specifically about the missile defense 
requirements for a European site?
    General Craddock. The negotiations will occur in the future 
with the specificity of who will be responsible for what. In 
discussions with the director of the MDA and EUCOM's equities 
and responsibilities, it appears that in each location the 
operational requirements, the investments, the MILCON required 
to build the sites themselves, would be responsibility for MDA 
to fund now and into the future.
    The initial investment made for the facilities needed for 
the personnel to man the site, if you will, initially, would be 
MDA, and then it would have to be placed into service, program 
objective memorandums, the POMs, for future years.
    We don't know the extent yet of what that will be. We don't 
have a full grasp of whether it will be DOD active duty, 
contractor, so the total investment or vulnerability has yet to 
be determined. So that is the context in which we made that 
statement.
    Mr. Franks. Thank you, sir.
    Are there any missile defense capability systems or 
deployment within either of your scope of knowledge or purview 
that you think should be accelerated?
    General Craddock. Well, I think with regards to theater 
missile defense, and this issue by the Missile Defense Agency, 
it has got to be harmonized against missile development 
capacity from these rogue states. We talk about Iran 
specifically for the European theater.
    So I think that is the timeline against which the 
acceleration must occur.
    Second, we would, from a short-range perspective in the 
European Command, we have short-range capability there, we 
would want to modernize that short-range capacity as quickly as 
possible, upgrade to a higher capable interceptor.
    Mr. Franks. General Smith, could I shift over to you, sir, 
and ask you pretty much the same question. Are there missile 
defense deployments, either planned or that are in place now, 
that you would like to see accelerated?
    General Smith. I really don't know. That is not part of the 
stuff that I am doing as a force provider, yet. It perhaps will 
be, but it is really in the range of strategic command.
    Mr. Franks. I understand.
    Well, Mr. Chairman, if it is all right, I would like to go 
ahead and submit a few questions for the record.
    And again, thank all of you for your courage and your 
commitment.
    Mr. Ortiz. If you can, whenever, you know, respond to the 
gentleman's questions for the record, then, with no objection, 
so ordered.
    The gentleman from Virginia, Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    And thank you, General Craddock and General Smith, for 
being here.
    I apologize. Mr. Franks and I have been down in the 
Judiciary Committee voting on a markup today, and we couldn't 
be in two places at one time.
    But for the record, General Smith, I have two questions. I 
would like to throw them both out at you, if I could. And then 
just let you take my time to respond to those two questions.
    The first one I have is, in fiscal year 2007, the Joint 
Forces Command took reductions of approximately $38.4 million 
in Research, Development, Test and Evaluation (RDT&E) accounts 
and $30 million in operations and management (O&M) account. 
Could you just elaborate to us what the impact of those 
reductions to JFCOM were?
    And, second, I understand that the LAA, the Limited 
Acquisition Authority, is designed to allow you as the 
commander of U.S. Joint Forces Command to develop and acquire 
urgent requirements for combatant commanders and that these 
requirements can include equipment for battle management 
command, intelligence and other equipment necessary for the use 
of Joint Forces in military operations.
    As I understand it, under current legislation the LAA is 
set to expire September 30, 2008. Do you believe the LAA should 
be extended beyond this date? And if so, what changes, if any, 
would you recommend to improve the authority?
    General Smith. Thank you, Congressman Forbes. Let me hit 
the last one first, if it is okay.
    Limited Acquisition Authority does not come with money. It 
is strictly an authority and it gives us the ability in the 
joint world to bridge the gap between programs that are out 
there and the needs of the combatant commander. And the 
successes are pretty interesting.
    Right now, we have a capability to deliver joint precision 
airdrop from a parachute with a 2,000 pound pallet through the 
weather in Afghanistan that was a capability that was out 
there, but because Special Operations Command wanted to move it 
quickly, we worked with them to pull it ahead 3 years and use 
our limited acquisition authority to get it moving. And now we 
have given them 10 of the systems. Central Command has 50. And 
we are working on a 10,000 and a 20,000 pound model.
    That is the kind of things that we can do with the 
authority. And I would like to see it made permanent. I have 
not come to the point yet where I have determined that we 
absolutely need money with it. There is some--it is elegant 
sometimes that I have to go with a tin cup and ask somebody 
with money to support it. But having said that, that also keeps 
rigor in the system, to make sure that it is a product that 
somebody really does want and are willing to pony up some money 
for.
    On the other hand, if we use it more than we are using it 
right now, then I would like to see some money attached to it 
later on, just so we have some flexibility to move the things 
rapidly.
    The impact on our RDT&E cuts had some impacts in a variety 
of areas. It impacted some of the things that we were talking 
about earlier, our ability to exercise and experiment with the 
interagency to some degree, because we had to back off some of 
the exercises and experiments that were looking out toward the 
future.
    And while it has not always the case, often we end up 
having to pay for interagency people. Certainly we pay for non-
governmental and international organizations to come down to 
participate in exercises with us. And that is where we usually 
are oftentimes end up taking the cuts out of that.
    So the impact is the exercises and the experiments, we are 
less able meet our goals and objectives, and that is what 
happened in 2007, and it moved a number of these programs to 
the right that I think are pretty critical.
    The thing when Joint Forces Command gets cut, when money 
gets cut out of our budget, it doesn't really impact Joint 
Forces Command. It impacts my ability to support General 
Craddock in his needs and his programs, of which we are doing 
considerable support for the type of stuff that he is doing. 
Supporting Africa and the like, he had the responsibility for 
that and we provided people to help look at how we would do the 
interagency piece and do the mix.
    These kinds of cuts, when they are mixed like that, they 
don't destroy programs, but they move them to the right and 
make them more difficult to accomplish.
    Mr. Forbes. My time is up, but if you have any response to 
the questions I had for General Smith, if you would either 
offer them or submit them, either one would be fine.
    General Craddock. Okay. Thank you. I agree with him, but I 
will submit them for the record.
    [The information referred to can be found in the Appendix 
beginning on page 127.]
    Mr. Forbes. Thank you, General.
    Thank you both for what you do.
    Mr. Ortiz. Thank you so much.
    I have one more question. And I think that this has been a 
very informative hearing this morning.
    General Craddock, I was just wondering if you could 
elaborate on NATO's involvement in Iraq. I understand that NATO 
is training Iraq's military personnel. And if so, you know, 
maybe, how many forces are they training and how many NATO 
trainers are there? And if you can just elaborate so that those 
members who are here, we are very few, but we will take it all 
in, okay?
    General Craddock. All right. Thank you, sir.
    The NATO training mission in Iraq was initially designed to 
provide niche or unique training opportunities that was not 
being provided by the coalition.
    What is that? Well, it is staff officer training, if you 
will, much like a general staff college, non-commissioned 
officer training, also, has been one of the areas where we have 
provided this. It has been ongoing for a few years, I think 
going on three now.
    And the concept was that NATO would provide a cadre of 
trainers to do this professional development training, if you 
will, of individuals. This was individual training, not unit 
collective training. And that over time, the Iraqis would 
develop a cadre of their own trainers and that NATO would work 
with and mentor, and then we would turn over the training 
responsibility to these Iraqi trainers and NATO would step back 
and reduce numbers then and mentor them to make sure the 
standards were maintained throughout the training.
    Now, that has happened. So originally, at times, we have 
had upwards of 300. I think now there is approximately 200, 
because as classes begin and the Iraqis take over more 
responsibility, we reduce numbers because our mentors go into 
effect, not our trainers.
    We have to date I think around 3,200, maybe a few more than 
that, Iraqi leaders, if you will, both officer and NCO, have 
gone through the training and have graduated.
    Now, there are two things happening. The numbers of NATO 
trainers are down because, as I have said, we have transitioned 
some of the responsibility to the Iraqis.
    Second, the numbers of classes and class sizes have reduced 
because the Iraqis have made a conscious decision to put many 
of the students who would have been in school back with their 
unit because of the security crisis they are in now in Baghdad 
and other places. So they are reducing their school 
subscription rate right now. So we have had to, we believe 
temporarily, bring down the numbers of trainers we have.
    Now, a new initiative, again, will be subject to approval 
by the North Atlantic Council, and that is the Italians have 
done a survey and it appears they are going to offer to NATO to 
provide police training from their carabinieri, a constabulary 
police force, very competent, very capable. We think, as do the 
Iraqis, that that is a capability they need.
    The site survey is done. The proposals are being formulated 
now. And we think that probably by mid-May we will deliver, in 
conjunction with General Smith, a proposal to North Atlantic 
Council to authorize the Italian carabinieri to do that. And 
that will be, we think, a big plus.
    So our effort has been up and down, and we work it with the 
numbers of Iraqis, the numbers of classes, the depth of the 
people that are available, and also this transition to let them 
take this over.
    Mr. Ortiz. Does this include both officers and NCOs? Is it 
a combination of them?
    General Craddock. Yes, it is a combination, in different 
classes. But we do have a non-commissioned officer professional 
development component to it.
    Mr. Ortiz. So in your opinion, you think this is working?
    General Craddock. We get good reports from it, both from 
the trainers and from the Iraqis. I will tell you that because 
of the security situation there, and they have pulled these 
people back right now, we hope that they see this to fruition, 
that the security situation gets better and they can send these 
students back. We think it is helpful.
    We also do some training outside of Iraq in NATO schools. 
The numbers are much smaller, but still it is ongoing, and that 
now again has become problematic because of the need to keep 
those leaders in the country during this turbulent period.
    Mr. Ortiz. Thank you so much.
    Mr. Wilson, do you have any other questions?
    General Smith. Congressman, I might add to that that we 
have coordinated about 1,030 out-of-country Iraqi courses, and 
the positive piece is we have had to upgrade the quality of the 
courses and the content of the courses because the Iraqi 
officers, and it is mostly officers, are much more capable and 
they understand and have a lot better grasp of what they are 
doing than they did a year ago or two years ago or three years 
ago.
    That is also a place that the other nations can contribute 
that don't support us inside Iraq. And they do do that.
    Mr. Ortiz. That is good news to hear.
    Mr. Wilson.
    Mr. Wilson. Again, this is good news. And I have had the 
privilege of visiting the police training facilities in Jordan, 
and indeed I was impressed by the training there. But 
additionally, the training in Europe is extraordinary. And then 
your training, too, of the provincial reconstruction teams for 
Afghanistan, indeed, also is making a difference. I visited 
with a joint U.S.-Korean and U.S.-Dutch personnel.
    And so, thank you again for your service.
    Mr. Ortiz. I guess we have one very valuable member of this 
committee.
    Mr. Sestak, do you have a question, sir?
    Mr. Sestak. Thank you.
    I am sorry. I swore when I came to Congress I would be at 
every single hearing, and I had three simultaneously. I 
apologize, sirs.
    If I could, I was curious, a question on U.S. FORCECOM, the 
flow of forces. It is a shared responsibility between 
Transportation Command (TRANSCOM) and FORCECOM. Is that 
correct? JFCOM, I apologize.
    General Smith. It is.
    Mr. Sestak. As you are working toward this global force 
management approach, there are some that believe that TRANSCOM 
should have it all, you know, from the beginning to the end, to 
fend for everything. And there have been several instances in 
the past of this desire or approach, which I am sure you are 
familiar with, sir.
    Do you think that is the best approach, particularly in the 
way that we flowed forces--although unusual, but we flowed 
forces in the build up to Iraq?
    General Smith. I don't think that that is the way to go. 
The relationship that we have with General Schwartz as TRANSCOM 
commander, being the joint distribution process owner, and me 
being the joint deployment process owner, works very well.
    What that really means is that I have the responsibility to 
identify the forces for the secretary and ensure that they are 
notified and ready to go up to the point where Transportation 
Command takes on the actual physical execution and movement.
    Now, he gives up responsibility for them when they are in 
theater. But as the deployment process owner, I am responsible 
for making sure I understand their readiness in theater and 
their needs in theater as well as when they will rotate out and 
how to get them out.
    So I am more responsible for the policy and the decision 
level piece, or at least recommending to the secretary, and he 
does the actual execution.
    Mr. Sestak. And just, General, for you, for our forces in 
the former Yugoslavia, are we about to take away or have we 
taken away that combat duty?
    General Craddock. I am not aware of any change in the 
status or the entitlements.
    Mr. Sestak. Would you support taking away combat duty 
status for them?
    General Craddock. I am not sure what you mean by combat 
duty status. I think right now the situation there is such that 
the entitlements that have been there should remain until the 
future status proposal is announced and we see responses. 
Because as you know, three weeks ago there was a violent 
demonstration and part of the Kosovo force had to be employed 
in that, and I think the situation is a bit turbulent to be 
making any changes now from that perspective.
    Mr. Sestak. So you would continue to support their status 
of what they are receiving?
    General Craddock. I don't know what is proposed, but 
without knowing that I would not support a change at this time. 
It is too uncertain.
    Mr. Sestak. General, I forgot what the process is called 
that you are intimately involved with down in J8, as they look 
at the joint warfare with the joint capability warfare approach 
down there. What is the name again?
    General Smith. The joint combat developers is what they do.
    Mr. Sestak. Do you see, as have you been assigned some 
duties particularly in the command and control and 
interoperability area, do you think budget-wise that you should 
have greater control of the assets in the budget toward that?
    General Smith. I don't know that we at Joint Forces Command 
need more control over the budget in regards to the Joint 
Command and Control portfolio. That is what you are talking 
about.
    Mr. Sestak. Yes.
    General Smith. What we do need is visibility into the 
money.
    Mr. Sestak. Into----
    General Smith. Into the money. Where the money is being 
spent. Not so we can get into the service Title 10 
responsibilities, but frankly the services as well as everybody 
else does not want to build a system that once they get at the 
80 percent level, they have to then figure out how to make them 
talk to each other.
    Mr. Sestak. So the reason I ask that, is it just seems as 
though if you are having a problem with the transparency, from 
here it is even more difficult. It is hard to find where the 
heart is within our Armed Services Committee of Command, 
Control, Communications, Computers, Intelligence, Surveillance 
and Reconnaissance (C4ISR), the real transformation of the 
military. And so therefore he who has the money has the power 
and the say, should it be more transparent, more centralized? 
Particularly since that is your mission?
    General Smith. I think it should be more transparent, 
absolutely. But the vehicle we have, through me as the Joint 
Command and Control portfolio manager, and the process we have 
through the deputies working group, which has all the vice 
chiefs of the services on it as well as combatant command 
representative and chaired by the deputy secretary of defense, 
have the ability to make financial decisions to move money back 
and forth across the services to make sure that we do look at 
this from a holistic view.
    Mr. Sestak. You are saying you would like to have that?
    General Smith. No. We do have that in the experimental 
phase.
    Mr. Sestak. In the experimental phase.
    General Smith. In the experimental phase, through the Sec 
Def's authority.
    Mr. Sestak. And how much money is that?
    General Smith. The portfolio right now is $4.4 billion. If 
we expanded it to the the whole Joint Command and Control 
arena, it would be over $100 billion.
    Mr. Sestak. Last question is--that was my last? Was that 
the gavel?
    Mr. Ortiz. Yes, I am pretty sure that--we both have another 
meeting.
    Mr. Sestak. That is fine.
    Mr. Ortiz. But go ahead and ask your question.
    Mr. Sestak. Are you sure?
    Expanding Joint Force headquarters, as what was proposed 
three years ago, the number, and where are we on achieving that 
and is it being adequately funded and manned?
    General Smith. It depends on the command. Now, in my 
command, we have two standing Joint Force headquarters. One we 
have dedicated to Central Command because they don't have the 
capacity really inside their headquarters to do that, and it is 
been used quite effectively a number of times.
    The other standing Joint Force headquarters, which was 
really for global responsibilities as well as homeland defense, 
it is the standing Joint Force headquarters that deployed for 
Katrina, that we took a cut in our operations budget, so that 
will take another six months or so to get funded. And the Navy 
has agreed to use the Navy Reserve to help man it.
    So the outlook on that, though I would rather we didn't 
have it kicked to the right like we did, is bright.
    Now, General Craddock, when he was at SOUTHCOM, his 
standing Joint Force headquarters was stood up and rapidly 
working toward having deployable joint command and control 
capability and a lot of other things, and that was moving in a 
nice direction. His standing Joint Force headquarters in 
European Command is a little bit different and there is nothing 
wrong with that and I will defer to him on that.
    The movement, we are right now in the con ops phase, and we 
had a lot of feedback from the combatant commanders on the 
direction we were going. I am an absolute believer in it, 
especially in the way that we have used it within my command, 
and I think it is a positive direction to go.
    Mr. Sestak. Thank you.
    Mr. Ortiz. Thank you so much for your leadership. Thank you 
for being with us.
    We thank your soldiers, your troops, for doing a great job, 
and hopefully we can do something to make it better for the 
lives, not only your lives, but the lives of your families as 
well.
    Thank you so much.
    This hearing stands adjourned.
    [Whereupon, at 12:25 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 15, 2007

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 15, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8369.001
    
    [GRAPHIC] [TIFF OMITTED] T8369.002
    
    [GRAPHIC] [TIFF OMITTED] T8369.003
    
    [GRAPHIC] [TIFF OMITTED] T8369.004
    
    [GRAPHIC] [TIFF OMITTED] T8369.005
    
    [GRAPHIC] [TIFF OMITTED] T8369.006
    
    [GRAPHIC] [TIFF OMITTED] T8369.007
    
    [GRAPHIC] [TIFF OMITTED] T8369.008
    
    [GRAPHIC] [TIFF OMITTED] T8369.009
    
    [GRAPHIC] [TIFF OMITTED] T8369.010
    
    [GRAPHIC] [TIFF OMITTED] T8369.011
    
    [GRAPHIC] [TIFF OMITTED] T8369.012
    
    [GRAPHIC] [TIFF OMITTED] T8369.013
    
    [GRAPHIC] [TIFF OMITTED] T8369.014
    
    [GRAPHIC] [TIFF OMITTED] T8369.015
    
    [GRAPHIC] [TIFF OMITTED] T8369.016
    
    [GRAPHIC] [TIFF OMITTED] T8369.017
    
    [GRAPHIC] [TIFF OMITTED] T8369.018
    
    [GRAPHIC] [TIFF OMITTED] T8369.019
    
    [GRAPHIC] [TIFF OMITTED] T8369.020
    
    [GRAPHIC] [TIFF OMITTED] T8369.021
    
    [GRAPHIC] [TIFF OMITTED] T8369.022
    
    [GRAPHIC] [TIFF OMITTED] T8369.023
    
    [GRAPHIC] [TIFF OMITTED] T8369.024
    
    [GRAPHIC] [TIFF OMITTED] T8369.025
    
    [GRAPHIC] [TIFF OMITTED] T8369.026
    
    [GRAPHIC] [TIFF OMITTED] T8369.027
    
    [GRAPHIC] [TIFF OMITTED] T8369.028
    
    [GRAPHIC] [TIFF OMITTED] T8369.029
    
    [GRAPHIC] [TIFF OMITTED] T8369.030
    
    [GRAPHIC] [TIFF OMITTED] T8369.031
    
    [GRAPHIC] [TIFF OMITTED] T8369.032
    
    [GRAPHIC] [TIFF OMITTED] T8369.033
    
    [GRAPHIC] [TIFF OMITTED] T8369.034
    
    [GRAPHIC] [TIFF OMITTED] T8369.035
    
    [GRAPHIC] [TIFF OMITTED] T8369.036
    
    [GRAPHIC] [TIFF OMITTED] T8369.037
    
    [GRAPHIC] [TIFF OMITTED] T8369.038
    
    [GRAPHIC] [TIFF OMITTED] T8369.039
    
    [GRAPHIC] [TIFF OMITTED] T8369.040
    
    [GRAPHIC] [TIFF OMITTED] T8369.041
    
    [GRAPHIC] [TIFF OMITTED] T8369.042
    
    [GRAPHIC] [TIFF OMITTED] T8369.043
    
    [GRAPHIC] [TIFF OMITTED] T8369.044
    
    [GRAPHIC] [TIFF OMITTED] T8369.045
    
    [GRAPHIC] [TIFF OMITTED] T8369.046
    
    [GRAPHIC] [TIFF OMITTED] T8369.047
    
    [GRAPHIC] [TIFF OMITTED] T8369.048
    
    [GRAPHIC] [TIFF OMITTED] T8369.049
    
    [GRAPHIC] [TIFF OMITTED] T8369.050
    
    [GRAPHIC] [TIFF OMITTED] T8369.051
    
    [GRAPHIC] [TIFF OMITTED] T8369.052
    
    [GRAPHIC] [TIFF OMITTED] T8369.053
    
    [GRAPHIC] [TIFF OMITTED] T8369.054
    
    [GRAPHIC] [TIFF OMITTED] T8369.055
    
    [GRAPHIC] [TIFF OMITTED] T8369.056
    
    [GRAPHIC] [TIFF OMITTED] T8369.057
    
    [GRAPHIC] [TIFF OMITTED] T8369.058
    
    [GRAPHIC] [TIFF OMITTED] T8369.059
    
    [GRAPHIC] [TIFF OMITTED] T8369.060
    
    [GRAPHIC] [TIFF OMITTED] T8369.061
    
    [GRAPHIC] [TIFF OMITTED] T8369.062
    
    [GRAPHIC] [TIFF OMITTED] T8369.063
    
    [GRAPHIC] [TIFF OMITTED] T8369.064
    
    [GRAPHIC] [TIFF OMITTED] T8369.065
    
    [GRAPHIC] [TIFF OMITTED] T8369.066
    
    [GRAPHIC] [TIFF OMITTED] T8369.067
    
    [GRAPHIC] [TIFF OMITTED] T8369.068
    
    [GRAPHIC] [TIFF OMITTED] T8369.069
    
    [GRAPHIC] [TIFF OMITTED] T8369.070
    
    [GRAPHIC] [TIFF OMITTED] T8369.071
    
    [GRAPHIC] [TIFF OMITTED] T8369.072
    
    [GRAPHIC] [TIFF OMITTED] T8369.073
    
    [GRAPHIC] [TIFF OMITTED] T8369.074
    
    [GRAPHIC] [TIFF OMITTED] T8369.075
    
    [GRAPHIC] [TIFF OMITTED] T8369.076
    
    [GRAPHIC] [TIFF OMITTED] T8369.077
    
    [GRAPHIC] [TIFF OMITTED] T8369.078
    
    [GRAPHIC] [TIFF OMITTED] T8369.079
    
    [GRAPHIC] [TIFF OMITTED] T8369.080
    
    [GRAPHIC] [TIFF OMITTED] T8369.081
    
    [GRAPHIC] [TIFF OMITTED] T8369.082
    
    [GRAPHIC] [TIFF OMITTED] T8369.083
    
    [GRAPHIC] [TIFF OMITTED] T8369.084
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             March 15, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. TAYLOR

    Mr. Taylor. To what extent have the insurgent successes at 
destroying High Mobility Multipurpose Wheeled Vehicles (HMMWVs) with 
mines--to what extent has that migrated to Afghanistan? And this is a 
leading question to how many HMMWVs do you have in Afghanistan and is 
there any plan to transition them to some variant of the MRAP?
    General Craddock. Improvised Explosive Devices (IEDs) attacks are 
the most effective enemy casualty producing tactic in both Iraq and 
Afghanistan (AFG). IEDs are the Islamic Terrorist and Insurgent's 
primary Fire-Support System and have been since the Israeli invasion of 
Lebanon in 1982. However, migration of specific IED tactics, techniques 
and procedures (TTPs) from Iraq to AFG have been fairly low. The two 
primary migrations are Vehicle-Borne Improvised Explosive Devices 
(VBIEDs) and Suicide Bombers (Vest and Vehicle). Both of these TTPs are 
al Qaeda (AQ TTPs. AQ is operating in both Combined Joint Operations 
Areas (CJOAs). Non-AQ IED TTPs (EFPs, etc.) have not migrated to AFG 
(yet). Radio-controlled IED and Pressure-plate IEDs (pseudo-mines) are 
also common to both Combined Joint Operating Areas and have developed 
at the same time in each (specific TTPs for these IEDs are not common 
between CJOAs).
    The number of M114 High Mobility Multipurpose Wheeled Vehicles 
(HMMWV) in Afghanistan:





TOTAL                                                            1,937
CJTF-82                                                          1,345
TASK FORCE PHOENIX                                                 592
CJSOTF-A                                                           175



    With regards to any plan for transitioning HMMWVs to some variant 
of the Mine Resistance Ambush Protective (MRAP) vehicle, the Joint 
Requirements Oversight Committee (JROC) determined U.S. forces in AFG 
will get a small number (375) of the overall MRAP systems that are 
produced. Once the MRAP production schedule is finalized, will we know 
when AFG will get their allocation.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LARSEN
    Mr. Larsen. Can you chat a little bit about Medium Extended Air 
Defense System (MEADS) and the management structure of MEADS? Do you 
think it needs changing? Do you think it is going to work and is 
working and is going to work?
    General Craddock. According to the Department of the Army, the 
MEADS program is experiencing some challenges, but no uncharacteristic 
delays or overruns considering it's an international cooperative 
development program. The Design and Development phase is U.S.-led, 
providing greater control of day-to-day operations as opposed to 
previous phases which were led by Italy and Germany. In addition, 
changes in key NATO MEADS Management Agency (NAMEADSMA) management 
personnel are envisioned with the next six months to enhance the 
NAMEADSMA management teams' efficiency and effectiveness.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FORBES
    Mr. Forbes. In fiscal year 2007, the Joint Forces Command took 
reductions of approximately $38.4 million in Research, Development, 
Test and Evaluation (RDT&E) accounts and $30 million in O&M account. 
Could you just elaborate to us what the impact of those reductions to 
JFCOM were?
    General Craddock. The impacts of budget cuts to JFCOM support to 
EUCOM have been primarily related to exercise support. JFCOM, as the 
global force provider has refocused much of their effort to add joint 
context to the training of CONUS-based forces. Joint National Training 
Capability (JNTC) is the construct/ability to execute Live-Virtual-
Constructive joint training as part of an exercise. JNTC is oriented to 
interoperability training for CONUS based forces. It is critical to 
EUCOM training and exercises in support of component certifications and 
AFRICA COMMAND stand-up that JNTC funds continue to support IA role 
players. JFCOM's eagerness to support AFRICA COMMAND is welcomed, since 
AFRICA COMMAND Headquarters activities will likely be all about 
integrated operations. Proper support for the stand-up will require 
increasing the training budget and accelerating the development and 
timing of exercises due to the aggressive timeline to full operational 
capability.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. KLINE
    Mr. Kline. The Department of Defense is currently conducting a 
world-wide review to determine whether current Imminent Danger Pay 
(IDP) and Combat Zone Tax Exclusion (CZTE) designations are 
appropriate. Do you feel the current IDP and CZTE designations for the 
KFOR mission in Kosovo is appropriate? Do you support the continued 
IDP/CZTE designation for the KFOR mission?
    General Craddock. Yes, the current Imminent Danger Pay (IDP) and 
Combat Zone Tax Exclusion (CZTE) designations for the Kosovo Force 
(KFOR) mission in Kosovo are appropriate. Eliminating the associated 
special pay and benefits would have a significantly negative impact on 
both the existing mission and on the morale of U.S. service members 
performing duties in the Balkans under Operation Joint Guardian in Task 
Force Falcon. These service members are upholding the requirements of 
United Nations Resolution 1244. An analysis of the dangers of the 
mission in Serbia (Kosovo) demonstrate that this area is close to 
active hostility between the indigenous ethnic groups while uniformed 
service members face dangerous situations on a routine basis during 
vehicle checkpoint duty, cordon and search operations, and smuggling 
interdiction.
    At this time, I do support the continued IDP/CZTE designation for 
the KFOR mission.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. CUMMINGS
    Mr. Cummings. General Craddock, you noted in your testimony that 
``Western Europe is home to some of our oldest and closet allies'' and 
there has been a moving trend in which, the defense budgets of these 
same NATO allies steadily fall to ``a level that jeopardizes their 
ability to make long-term strategic military commitments to meet the 
Alliance's 21st Century ambitions.'' In this same vein, as our allies 
continue to lessen its budgets and commitments, we have seen a 
resulting steady flow of withdrawal plans from some of our key 
partners. Notably, British Prime Minister Tony Blair on Wednesday, 
February 21st announced his plans for the imminent withdrawal of around 
1,600 of his country's troops from Iraq in the coming months. The 
remaining British troops will simply support training efforts for Iraqi 
security forces; Denmark also plans to withdraw 460 coalition troops by 
August of this year. a. Recognizing the decreasing allied support, can 
the United States European Command be able to effectively and 
efficiently man the vast 21 million square mile area that includes 92 
diverse nations in Europe, Eurasia and Africa along side, an already 
overstretched system due to the ongoing conflicts in Iraq and 
Afghanistan? b. In consideration of the clear decline in allied 
support, what efforts are being made to ensure that other allies do not 
follow the lead of Denmark and Great Britain in our efforts to 
stabilize Afghanistan and Iraq along with, areas throughout Africa and 
elsewhere?
    General Craddock. In response to your first question, European 
Command (EUCOM) has felt the impact of 9/11 on the ability to support 
security cooperation activities. For example, the Africa Contingency 
Operations Training and Assistance (ACOTA) program is one of the United 
States' most effective programs in Africa, providing peacekeeping 
training and non-lethal equipment to 19 partner nations willing to send 
peacekeepers to United Nations or African Union peace support 
operations. Prior to 9/11, EUCOM Components provided 20-40 Service 
members for each ACOTA training cycle; now, two contract organizations 
provide the majority of training. EUCOM continues to support ACOTA 
through supplementing contractor with a handful of military 
``mentors,'' normally sourced from Reserve and National Guard forces.
    The ACOTA program also offers EUCOM the greatest opportunity to 
engage with Allies to support U.S. efforts in Africa. Therefore, at 
every opportunity, EUCOM works with Allies and friends to increase 
involvement in ACOTA and match European military expertise with 
specific ACOTA Partner Nation training requirements. Both Belgium and 
the United Kingdom have sent military training teams to work along side 
EUCOM military ``mentors'' at ACOTA training events. As well, EUCOM 
regularly supports the Department of State ACOTA Program Office efforts 
to deconflict training methodologies, technical language, and 
organizational structures. For example, U.S. and French trainers met to 
consolidate military terminology and phase training modules to best 
meet Senegalese requirements to prepare troops for peacekeeping 
missions.
    In addition to increasing peacekeeping capability across the 
African continent, building African maritime security and maritime 
domain awareness are priorities for EUCOM in Africa. With a continuing 
strain on Global Naval Force Presence, the opportunity for naval 
engagement is limited, with fewer ships available to support direct 
military-to-military contact in Africa. As a result, EUCOM intends to 
focus available naval assets on security cooperation aimed at building 
capacity and increasing maritime domain awareness in the Gulf of 
Guinea. Eventually, this effort will expand to include the Southwest 
Indian Ocean region as well.
    In response to your second question, it is important to point out 
that while the United Kingdom announced they were going to withdraw 
troops from Iraq, at the same time they announced that they were going 
to send additional troops to ISAF. This ISAF troop augmentation will 
add to the approximately 800 augmentation the United Kingdom (UK) 
announced earlier this year. It does appear that some nations are 
shifting forces from Iraq and in doing so freeing up forces that can be 
contributed to the North Atlantic Treaty Organization (NATO) mission in 
Afghanistan.
    EUCOM representatives at all levels regularly participate in 
trilateral meetings with counterparts from France and the United 
Kingdom. Trilateral meetings address both operational missions and 
security cooperation activities. Through this forum, EUCOM has been 
able to strengthen non-combatant evacuation operations coordination and 
address capacity building for the Economic Community of West African 
States (ECOWAS) and the African Union to create, support, and sustain 
standby forces. In the realm of traditional security cooperation 
activities, in-depth information sharing facilitates best utilization 
of each nation's limited resources in order to meet security 
cooperation requirements in Africa.
    Mr. Cummings. Considering that we began our efforts in Afghanistan 
in October of 2001, what are the long-term and short-term goals of 
NATO/ISAF military presence in attaining stability? What are NATO/ISAF 
most immediate concerns that stifle it from meeting these goals?
    General Craddock. In 2003 the International Security Assistance 
Force (ISAF) assumed the mission to establish and maintain a secure 
environment in order to facilitate the reconstruction and development 
of Afghanistan. ISAF's long term goal for this mission is to leave the 
Government of Afghanistan (GoA) capable of providing its own security. 
The short-term goal is to establish the security required to enable 
stability operations. Stability operations include ISAF forces 
conducting short term reconstruction projects to create the conditions 
where the citizens of Afghanistan quickly recognize the benefits of 
maintaining a peaceful environment. With a stable environment, Afghan 
reconstruction and development can be conducted more effectively.
    Critical to ISAF achieving its long term objective is building a 
trained and capable Afghan National Army (ANA). Therefore, as ISAF 
continues its mission, it's most immediate concern is having adequate 
NATO forces and equipment to maintain security as well as to train, 
equip and mentor the ANA.
    Of equal concern to NATO is ISAF's inability to stem the flow of 
Taliban and other opposing militant forces (OMF) across the Pakistan 
border. As long as a safe haven exists for OMF in Pakistan, providing 
long term security in the southern and eastern regions of Afghanistan 
remains problematic.
    Mr. Cummings. You stated in your submitted testimony that 
``Combating Weapons of Mass Destruction are among the United States 
European Command Area of Responsibility (EUCOM AOR) highest 
priorities'' since the majority of the world's nuclear powers are 
located in this area. In addition, you also noted that ``on the 
periphery of the EUCOM AOR is Iran's continued nuclear program'' which, 
is clearly a risk to U.S., NATO and partner interests. What further 
efforts in the Proliferation Security Initiative are being coordinated 
to protect the U.S. and our NATO partners from these risks?
    General Craddock. United States European Command (EUCOM) continues 
to support on-going Proliferation Security Initiative (PSI) exercise 
planning and execution. We recently participated in Exercise ANATOLIAN 
SUN. This exercise, led by Turkey, involved U.S. Navy ships working in 
conjunction with other Proliferation Security Initiative (PSI) 
participating nations and North Atlantic Treaty Organization (NATO) 
partners, to conduct interdiction training in the Mediterranean. EUCOM 
also coordinated other U.S. Interagency activities with their 
counterparts in the government of Turkey. Planning is underway for 
Exercise EXPLORING HYPERION, a United Kingdom led PSI exercise focused 
on maritime interdiction planned for the Fall of 2007. We are in 
discussions with several other PSI nations to attend their upcoming 
exercises as either participants or observers. We participate in PSI 
Operational Experts Group (OEG) planning and coordination conferences 
on a quarterly basis. EUCOM continues to assist the Department of State 
in reaching out to those nations in our AOR who have not yet joined the 
PSI in order to encourage them to sign on to this valuable initiative. 
Our ultimate goal is to encourage other countries to develop their own 
Weapons of Mass Destruction (WMD) interdiction capabilities and to 
agree to work together in support of the goal of preventing WMD 
proliferation.
    There have been successful interdictions of related WMD materials 
and technologies in EUCOM's Area of Responsibility. PSI provides a 
useful framework to further develop and enhance partner nation 
interdiction and counter proliferation capabilities. Because WMD 
proliferation will continue to be a global challenge that requires a 
coordinated global approach, we view PSI as a critical component of our 
overall Combating WMD efforts.
    In addition to PSI, we participate in the International Counter 
Proliferation Program, Cooperative Threat Reduction, Biological Weapons 
Proliferation Prevention Initiative, WMD Proliferation Prevention 
Initiative, Caspian Guard and Black Sea Initiatives, and Operation 
Active Endeavor. These programs help support the goals of counter 
proliferation in the United States European Command Area of 
Responsibility (EUCOM AOR).
    Through all the these programs and initiatives, EUCOM, in support 
of broader U.S. government efforts and in cooperation with our partners 
and allies, is actively working to secure WMD stockpiles in the Area of 
Responsibility; to facilitate the destruction of WMD stockpiles; to 
deny terrorists access to WMD weapons, materials, and technologies; and 
to prevent the transfer of WMD weapons, materials, and technologies to 
state and non-state actors of concern.
    Mr. Cummings. On March 11th, a report in the New York Times and the 
French Press illustrated the ongoing problem of drug trafficking in 
Afghanistan. Specifically, the article detailed an Afghan man who was 
arrested at the central post office in Kabul when he tried to mail a 
coat to London. Unfortunately, the lining of this coat was filled to 
capacity with eight pounds of heroin. Given that NATO/ISAF officers 
traditionally concentrate its efforts in combating opium production and 
trafficking, what efforts are being made to counter other narcotics 
trafficking? In addition, how are our NATO allies assisting us in these 
efforts?
    General Craddock. The North Atlantic Treaty Organization (NATO) 
efforts relative to countering the illegal narcotics trade in 
Afghanistan are limited to a supporting role to the Government of 
Afghanistan (GoA) and other sanctioned counter narcotics (CN) 
organizations operating in Afghanistan. NATO's authorized the 
International Security and Assistance Force (ISAF) to provide 
logistical support to the international communities CN agencies, 
intelligence support, information campaign support, and in extremis 
security support to the GoA and other international organizations as 
they conduct CN operations. ISAF forces cannot directly participate in 
the seizure of narcotics or the apprehension of suspected narcotics 
traffickers unless they are encountered incidental to the conduct of 
other routine military operations.
    The GoA is responsible for the design and execution of CN 
operations within their border. The GoA's Ministry for Counter 
Narcotics develops policy with regard to CN and the Ministry of the 
Interior is responsible for the execution and enforcement of CN 
policies. NATO Alliance nations support to Afghan CN efforts is 
provided in varying direct and indirect means. The United Kingdom is 
the G8 nation lead for CN operations in Afghanistan, tasked with 
providing support to the GoA with regard to the policy development, 
planning, resourcing, and execution of CN operations. The U.S. and UK 
provide alternative livelihood support to former opium poppy farmers. 
The Italian Government is the lead G8 nation working judicial reform, 
which is an essential element in countering the illicit narcotics 
trade. The German Government serves as the lead nation for the 
development of the Afghan police force. Additionally, many Alliance 
nations have bilateral agreements with the GoA which directly support 
CN efforts.
    Mr. Cummings. As of the October 16th the Department of Defense 
announced its plan to resume mandatory anthrax vaccination after a 
nearly two-year hiatus. Since that time, our service members have been 
required to be injected with this potentially debilitating and deadly 
vaccine. More recently, I was made aware that many of our veterans have 
made complaints to their superior officers in the Army, Air Force and 
National Guard concerning how this understudied vaccine has caused 
burns, extreme bodily pain that limits or totally defrauds them of 
mobility, paralysis or their death. a. General Caddock, what steps have 
been made to conduct further tests to ensure that this vaccine really 
is safe and effective? b. Considering that the U.S. appears to be the 
only nation in the world that forces its military personnel to take the 
anthrax vaccine, how concerned should we be about the threat of anthrax 
being used as a form of terrorism? c. These same service members that 
complained of the debilitating side effects of the anthrax vaccination 
also, noted the lack of health benefits made available to them. One 
particular Veteran of the Army suffers from extensive mobility problems 
as a result of his vaccination. Specifically, he went from scoring 
merits of physical achievement in his training to not being able to 
walk down the hallways of Rayburn without the help of a cane. This 
veteran further noted that the Army rated him at 20% which, resulted in 
him receiving a mere $221.00 in benefits in order to support himself, 
his children and disabled wife. i. What measures are being taken to 
ensure that our service members are being supplied with adequate 
healthcare along with, a fair and effectively physical evaluation in 
order to determine their health benefits? ii. What measures are 
currently in place for individuals to appeal the physical evaluation 
results particularly, for our men and women in Iraq and Afghanistan?
    General Craddock. Congressman Cummings, since the answer to this 
question is outside the scope of day-to-day operations of United States 
European Command (EUCOM) and Supreme Headquarters Allied Powers Europe 
(SHAPE), I would like to refer you to the Assistant Secretary of 
Defense for Health Affairs for a response to this question.
    Mr. Cummings. General Craddock, you noted in your submitted 
testimony that ``refugees from the conflict in the Darfur region of 
Sudan have created a humanitarian catastrophe. In many areas of Central 
Africa, such as the vast interior of the Democratic Republic of the 
Congo and the northern sections of Chad, there is very little military 
or police presence, and often no central government influence. These 
problems, aggravated by difficult terrain and a lack of infrastructure, 
have allowed smuggling and conflict to flourish.'' Indeed, as of 
January 2007, approximately two million displaced people live in camps 
in Darfur and at least 232,000 people have fled to neighboring Chad, 
where they live in refugee camps. In addition to the people displaced 
by the conflict, at least 2 million other people are considered 
``conflict-affected'' by the UN and many need some form of food 
assistance because the conflict has damaged the local economy, markets, 
and trade in Darfur. a. How effective has the EUCOM's contribution been 
to date in the efforts to stabilize and protect the people of Darfur? 
b. What efforts have been made to train African troops to date that 
have received training under the EUCOM initiative in securing this 
region? c. Overall, in assisting in the stabilization of the vast 
continent of Africa, how costly do you believe these efforts will be? 
In addition, how will our allies assist us in bearing the burden?
    General Craddock. In response to your first question, United States 
European Command's (USEUCOM's) contribution is only a part of the 
overall U.S. effort for Darfur and includes actions we have been 
directed to do in support of U.S. policy.
    EUCOM has supported the African Union Mission in Sudan since 2004 
by providing airlift support twice per year to rotate the three Rwandan 
Battalion peacekeeping contingents to/from Darfur as part of, I should 
emphasize, an overall North Atlantic Treaty Organization (NATO)-led 
support effort to transport peacekeeping forces into Darfur. Previous 
EUCOM support has included the provision of airlift with both military 
aircraft and contracted commercial carriers.
    EUCOM provided one officer to support the U.S. delegation to the 
Darfur Peace Agreement negotiations. This officer was on hand at the 5 
May 06 signing of the Darfur Peace Agreement by the Government of Sudan 
and one of the rebel factions. EUCOM subsequently sent a team of three 
officers for 90 days to the African Union Mission in Sudan headquarters 
in Al Fashir, Sudan, with the duty of assisting the African Union (AU) 
with the implementation of the Darfur Peace Agreement. As of today, 
implementation of the Darfur Peace Agreement remains incomplete because 
of the continually deteriorating political and security situation.
    EUCOM provided military planner support to the United Nations and 
the Joint Staff in February and March 2006 to develop military options 
to support the African Union Mission in Sudan. At this point, options 
are limited by the reluctance of the Government of Sudan to permit 
international Western elements into Darfur.
    In response to your second question, EUCOM actively supports the 
Global Peace Operations Initiative (GPOI). GPOI is a Department of 
State program, planned in consultation with and implemented by 
Department of Defense (DoD) to train and equip peacekeepers. In Africa, 
GPOI funds supplement the existing Africa Contingency Operations 
Training and Assistance (ACOTA) program to provide training, equipment, 
and logistical capability to meet United Nations peace operations 
standards. The bulk of GPOI activities in EUCOM are within the 
framework of ACOTA, which assists 19 ACOTA ``partner countries'' in 
developing the ability to participate in peace support operations.
    In the coming months, the ACOTA program will provide multilateral 
battalion and brigade-level training for African sub-regional 
organizations. It will also increase training support to the AU staff 
and forces in joint operations. At the tactical level, USEUCOM will 
continue to increase its participation in the ACOTA program, providing 
military mentors and advisors to the Department of State contractor-led 
training effort, wherever possible. ACOTA remains a crucial African 
engagement program, directly supporting U.S. national objectives of 
promoting stability, democratization, and military professionalism in 
Africa. GPOI funding sustains African peacekeeping forces to enable 
these units to address the multiple crises on the African continent.
    In response to your third question, because the challenges in 
Africa are not confined to a single nation, EUCOM takes a regional 
approach at analyzing this strategic environment. On the Continent of 
Africa, we face a complex environment with enormous challenge and 
potential. While Africa is rich in both human potential and mineral 
resources, it has historically struggled with relatively unstable 
governments, internal political strife, and economic problems. Many 
states remain fragile due to a variety of factors, including 
corruption, endemic and pandemic health problems, historical ethnic 
animosities, and endemic poverty. Security Cooperation (SC) programs 
remain the cornerstone of our Strategy of Active Security to promote 
common security, which ultimately supports national objectives in the 
global war on terror (GWOT). Our SC programs represent a proactive 
approach to building partnership capacity with the aim of enabling 
emerging democracies to defend their homelands, address and reduce 
regional conflicts, defeat terrorist extremists, develop common 
economic and security interests, and respond to emerging crises. From 
airborne training to non-lethal weapons education, EUCOM personnel and 
facilities provide practical and state of the art training. Assisting 
our allies and partners in developing their capabilities to conduct 
effective peacekeeping and contingency operations with well-trained, 
disciplined forces helps mitigate the conditions that lead to conflict, 
prepares the way for success, and reduces the potential burden of U.S. 
involvement.
    EUCOM Security Cooperation efforts require consistent, predictable 
investment in order to impact the multitude of strategic, security, 
economic, and political challenges we face.
    We recognize that many of the challenges in Africa's stability 
exceed the capacity of any one nation to resolve and that today's 
threats require a comprehensive approach by the international 
community, involving a wide spectrum of civil and military instruments. 
EUCOM's efforts are coordinated and complementary with a broad range of 
national, international and regional actors.
    Mr. Cummings. General Smith, earlier I addressed a question to 
General Craddock (see question 1 for General Craddock) involving the 
steady downstream of long-term strategic military commitments and 
defense budgets of our allies that has stifled the ability to meet our 
21st Century ambitions. Recognizing the need of our allies to 
`transform' its capabilities in order to meet the ever growing 
challenges of modern security issues, a. What measures are being taken 
to ensure our allies are properly adapting to this continually changing 
environment? b. How differentiated are these approaches to 
``transformation'' amongst our allies?
    General Smith. a. NATO's ongoing transformation reflects cultural 
and institutional change on a grand scale as the Alliance and member 
nations explore and adopt new capabilities that will enhance their 
ability to meet the challenges of today and the future in a new and 
uncertain strategic environment. The process encompasses reorganization 
and re-equipping and introduces innovative ways of looking at 
challenges through the lens of capabilities. It is more than new 
technology; transformation includes the need to embed a culture of 
innovation and managed risk into our thinking. It is driven ever 
forward by the increasing requirement for NATO's forces to be 
multinational and joint by design, deployable wherever and whenever 
needed and coherently interoperable in thought and action.

     -- NATO created Allied Command Transformation (ACT) as the 
Alliance's dedicated instrument to co-ordinate, harmonize and pursue 
the process of transformation. NATO has seven transformation focus 
areas: Information Superiority, NATO Network Enabled Capability (NNEC), 
Effective Engagement, Joint Maneuver, Enhanced Civil-Military Co-
operation, Expeditionary Operations and Integrated Logistics. As an 
example, NNEC seeks to enhance capabilities by employing Information 
Age to facilitate the delivery of military effects with unparalleled 
speed and accuracy. It will allow Nation's forces to network together 
and the Allied Commander to conduct operations with real time 
information, confident in his situational awareness and coordination 
with others.

     -- In regard to output, NATO has already made considerable impact. 
ACT has provided several Member Nations with detailed and comprehensive 
assessments of their national defense programs, and has incorporated 
experiments into various NRF exercises and increased experimentation at 
the political/military level with plans to address the challenge of 
multinational and interagency engagement. Within the research and 
technology field, ACT is moving forward to develop concepts for the 
employment of Autonomous Underwater Vehicles (AUV) and Joint 
Intelligence, Surveillance and Reconnaissance (JISR) technologies. 
Within Command and Control (C2), ACT delivered a NATO Network-Enabled 
Capability Foundation Document that provided an overarching concept and 
a roadmap for delivery of near-term initiatives, while progress 
continues on the development of a coherent and highly adaptive C2 
capability for the NRF that will encompass the strategic environment. 
In resources and logistics, ACT is engaged in Radio Frequency 
Identification (RFID) experiments to provide NATO commanders with 
capabilities to track the flow of supplies between support facilities 
in Europe to 19 remote operational areas such as Afghanistan. ACT's 
delivery of a new multinational logistics concept has been agreed to by 
the Nations. ACT personnel are in Iraq providing support to the 
training of Iraqi Security Force personnel as well as providing support 
to their training at the NATO School in Oberammergau, Germany. 
Likewise, ACT also provides specialized training to NATO's deployable 
Joint Task Force staffs in preparation for Afghanistan operations.

     -- A primary vehicle for evaluating new concepts and capability 
improvements is the NATO Response Force (NRF). A highly trained and 
technologically advanced operational military force, the NRF is ideally 
suited to identify new capabilities and concepts, through lessons 
learned, and then serve as a test-bed for their analysis. The NRF can 
deploy as a stand-alone force for Article 5 (collective Defence) or 
non-Article 5 crisis response operations such as evacuation operations, 
support disaster consequence management (including chemical biological, 
radiological and nuclear events), humanitarian crisis situations and 
counter terrorism operations; it can deploy as an initial entry force 
facilitating the arrival of larger follow-up forces; or it can deploy 
as a demonstrative force to show NATO's determination and solidarity to 
deter crises (quick response operations to support diplomacy as 
required). I think the key point here is the word ``deploy,'' an 
example of the change that has occurred within NATO since the end of 
the Cold War, when the 16 nations of the Alliance were focused on 
fighting in place from well defended, fixed bases.

     -- I think the most important example that should assure us that 
the Alliance is adapting to a continually changing environment is its 
support of the International Security Assistance Force in Afghanistan.

     -- Ten of the NATO and PfP nations have formal bilateral 
agreements with USJFCOM that establish liaison officers across the 
Command to collaborate on efforts in support of greater 
interoperability and transformation. Overall, there are 47 nations 
(NATO, PfP and others) with an opportunity to interact with JFCOM in 
some manner, either as part of additional duties while assigned to 
other organizations in the local area, or fully integrated within the 
JFCOM structure. They are partners in training and experimentation and 
work together to find common areas for improving the quality of their 
armed forces. We had over 25 Ministers of Defense and Chiefs of Defense 
visit both Norfolk last year--this shows the importance individual 
countries place on what is happening with USJFCOM and ACT. We believe 
these efforts provide the synergy needed to ensure our Allies 
understand requirements for transformation.
    b. There are many different approaches to transformation within 
NATO--there is not one way or one path. This is what has made NATO so 
enduring. The Cold War capabilities of the United States were 
expeditionary by nature--the battleground was going to be Europe and 
U.S. was geographically separated. Our incredible logistic capabilities 
were born during the throes of the Second World War, and were built up 
over the next 50 years--at a significant investment cost. Our Western 
European Allies did not have this capability. They did not require an 
expeditionary culture, but they are now developing one with some 
innovative transformation programs. It's also important to note that 
NATO is bigger, having gained new members from Eastern Europe that did 
not have common experiences with the Alliance during its evolution in 
the last half of the last century. It is a cultural shift for the 
entire Alliance--that will require development over time, but I think 
our partners have made much progress.

     -- NATO is not just the United States and Europe--it's the United 
States and 25 other nations, with the U.S. and Canada the only ones not 
in Europe. The unique challenge for NATO's transformation is that it is 
attempting this `revolution' in an Alliance of 26 sovereign Nations. 
Addressing different military cultures, different capability starting 
points, different geographical and historical perspectives, unique 
national security issues and domestic law and budgetary constraints are 
not subjects for the faint-hearted. The agreed intent among all the 
Member Nations to invest in more agile forces, to collaborate widely in 
the requirements and procurement process, to share information and best 
business practices openly, will result in greater efficiencies on an 
Alliance-wide scale. Regular interaction between Nations' defense and 
acquisition planners and NATO's transformation organization will help 
ensure streamlined and targeted military infrastructures, forces and 
processes.

     -- Across the Alliance, we are seeing different levels of effort 
and different approaches to change, all dependent on each nation's 
internal budgets, economies, politics, and capabilities. In the long 
term NATO members, we're seeing a focus on shifting to capabilities-
based approach to defense planning and acquisition reform. 
Modernization of existing equipment is also an area of considerable 
effort. This is critical to achieve the greater interoperability that 
is required on the missions that NATO is involved in now--missions that 
require much political commitment but a leaner and more agile fighting 
force able to bolt on to infrastructure provided by other nations or 
for other nations. Creative solutions, such as partnering together to 
create a strategic airlift capability, are also being developed, thus 
allowing the Nations to expand their contributions to Coalition forces 
worldwide. The newer members of NATO face a different set of problems 
to achieve transformation, yet many times we find them the most eager 
for change. These nations are struggling to move from a heavy land-
based force to a more mobile and flexible professional force. This 
capability requires organic medical, mobility, security, and logistic 
elements than they've had in the past. Additionally, they must 
transform their overall military culture away from Soviet era doctrine, 
training, and tactics to NATO standards and practices that are 
consistent with our international security assistance policies and, 
ultimately, the United States' national security policy.

     -- One of the best catalysts to NATO transformation is having 
Allied Command Transformation and Joint Forces Command collocated in 
Norfolk, Virginia, with one person in command of both. Because of this, 
we are able to leverage capabilities across both commands to develop 
best practices. JFCOM's experimental and training infrastructures 
provide benefit not only to U.S. forces, but NATO Allies and other 
multinational partners, in order to develop solutions to problems that 
confront the international community. Additionally, we have strong 
linkages between commands within JFCOM--the Joint Warfighting Center, 
Joint National Training Capability, and Joint Center for Operational 
Analysis and Lessons Learned--with like functions in ACT such as the 
Joint Warfare Center in Norway the Joint Force Training Center in 
Poland, and the Joint Analysis and Lessons Learned Center in Portugal.

                                  <all>

</pre></body></html>
